<html>
<title> - IMPROVING AND REFORMING THE NATION'S SURFACE TRANSPORTATION PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                   IMPROVING AND REFORMING THE NATION'S 
                     SURFACE TRANSPORTATION PROGRAMS 
=======================================================================

                                (112-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               ----------                              

                         MARCH 29 AND 30, 2011

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure













                  IMPROVING AND REFORMING THE NATION'S
                    SURFACE TRANSPORTATION PROGRAMS




















                  IMPROVING AND REFORMING THE NATION'S
                    SURFACE TRANSPORTATION PROGRAMS

=======================================================================

                                (112-19)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         MARCH 29 AND 30, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-478 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
TOM REED, New York                   MICHAEL E. CAPUANO, Massachusetts
ANDY HARRIS, Maryland                TIMOTHY H. BISHOP, New York
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    RUSS CARNAHAN, Missouri
FRANK C. GUINTA, New Hampshire       GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           MAZIE K. HIRONO, Hawaii
CHIP CRAVAACK, Minnesota             JASON ALTMIRE, Pennsylvania
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               HEATH SHULER, North Carolina
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           DONNA F. EDWARDS, Maryland
STEPHEN LEE FINCHER, Tennessee
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma

                                  (ii)

  


                  Subcommittee on Highways and Transit

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
THOMAS E. PETRI, Wisconsin           JERROLD NADLER, New York
HOWARD COBLE, North Carolina         BOB FILNER, California
FRANK A. LoBIONDO, New Jersey        LEONARD L. BOSWELL, Iowa
GARY G. MILLER, California           TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 MICHAEL H. MICHAUD, Maine
BILL SHUSTER, Pennsylvania           GRACE F. NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  MAZIE K. HIRONO, Hawaii
JEAN SCHMIDT, Ohio                   JASON ALTMIRE, Pennsylvania
CANDICE S. MILLER, Michigan          TIMOTHY J. WALZ, Minnesota
ANDY HARRIS, Maryland                HEATH SHULER, North Carolina
ERIC A. ``RICK'' CRAWFORD, Arkansas  STEVE COHEN, Tennessee
JAIME HERRERA BEUTLER, Washington    LAURA RICHARDSON, California
FRANK C. GUINTA, New Hampshire       ALBIO SIRES, New Jersey
LOU BARLETTA, Pennsylvania           DONNA F. EDWARDS, Maryland
BLAKE FARENTHOLD, Texas              EDDIE BERNICE JOHNSON, Texas
LARRY BUCSHON, Indiana               ELIJAH E. CUMMINGS, Maryland
BILLY LONG, Missouri                 NICK J. RAHALL II, West Virginia
BOB GIBBS, Ohio                        (Ex Officio)
RICHARD L. HANNA, New York, Vice 
Chair
STEVE SOUTHERLAND II, Florida
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)
























                                CONTENTS

                              ----------                              

                        TUESDAY, MARCH 29, 2011

                                                                   Page

Summary of Subject Matter........................................    ix

                               TESTIMONY

Betkey, Vernon F., Jr., Director, Maryland Highway Safety Office, 
  on behalf of the Governors Highway Safety Association..........     4
Byrd, LaMont, Director, Safety and Health Department, 
  International Brotherhood of Teamsters.........................     4
Dexter, Jennifer, Assistant Vice President, Government Relations, 
  Easter Seals...................................................     4
Dowling, Captain Steve, California Highway Patrol, on behalf of 
  the Commercial Vehicle Safety Alliance.........................     4
Downey, Mortimer L., III, Senior Advisor, Parsons Brinckerhoff, 
  on behalf of the Coalition for America's Gateways and Trade 
  Corridors......................................................     4
Hanley, Larry, International President, Amalgamated Transit Union     4
Johnson, Wayne, Manager, Global Carrier Relations, Owens Corning, 
  on behalf of The National Industrial Transportation League.....     4
Kane, Kristopher, Professional Truck Driver, Quality Carriers, on 
  behalf of the Owner-Operator Independent Drivers Association...     4
Leach, Dave, President and CEO, Greyhound Lines, Inc.............     4
Letourneau, Robert, Motorcycle Rider Education Specialist, New 
  Hampshire Department of Safety, on behalf of the Motorcycle 
  Riders Foundation..............................................     4
Marsico, Dale J., Executive Director, Community Transportation 
  Association of America.........................................     4
Martz, Jon, Vice President, Government Relations, VPSI, Inc., on 
  behalf of the Association for Commuter Transportation..........     4
McBride, Robert, Operator, Metro Taxi, on behalf of the Taxicab, 
  Limousine & Paratransit Association............................     4
Millar, William, President, American Public Transportation 
  Association....................................................     4
Mullings, Lisa J., President and CEO, NATSO, Inc. (National 
  Association of Truck Stop Operators)...........................     4
Nagle, Kurt J., President and CEO, American Association of Port 
  Authorities....................................................     4
Pantuso, Peter J., President and CEO, American Bus Association...     4
Stone, Judith Lee, President, Advocates for Highway and Auto 
  Safety.........................................................     4
Windsor, Barbara, President and CEO, Hahn Transportation, Inc., 
  on behalf of American Trucking Associations....................     4
Withers, Jan, Member, National Board of Directors, Mothers 
  Against Drunk Driving..........................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Duncan, Hon. John J., Jr., of Tennessee..........................    44
Richardson, Hon. Laura, of California............................    45

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Betkey, Vernon F., Jr............................................    50
Byrd, LaMont.....................................................    59
Dexter, Jennifer.................................................    73
Dowling, Captain Steve...........................................    91
Downey, Mortimer L., III.........................................   108
Hanley, Larry....................................................   118
Johnson, Wayne...................................................   146
Kane, Kristopher.................................................   156
Leach, Dave......................................................   166
Letourneau, Robert...............................................   171
Marsico, Dale J..................................................   177
Martz, Jon.......................................................   197
McBride, Robert..................................................   203
Millar, William..................................................   211
Mullings, Lisa J.................................................   235
Nagle, Kurt J....................................................   241
Pantuso, Peter J.................................................   245
Stone, Judith Lee................................................   265
Windsor, Barbara.................................................   285
Withers, Jan.....................................................   308

                       SUBMISSIONS FOR THE RECORD

Betkey, Vernon F., Jr., Director, Maryland Highway Safety Office, 
  on behalf of the Governors Highway Safety Association, response 
  to question....................................................    57
Dowling, Captain Steve, California Highway Patrol, on behalf of 
  the Commercial Vehicle Safety Alliance, response to question...   101
Downey, Mortimer L., III, Senior Advisor, Parsons Brinckerhoff, 
  on behalf of the Coalition for America's Gateways and Trade 
  Corridors, responses to questions..............................   114
Hanley, Larry, International President, Amalgamated Transit 
  Union, responses to questions..................................   144
Kane, Kristopher, Professional Truck Driver, Quality Carriers, on 
  behalf of the Owner-Operator Independent Drivers Association, 
  response to question...........................................   165
Millar, William, President, American Public Transportation 
  Association, responses to questions............................   229
Stone, Judith Lee, President, Advocates for Highway and Auto 
  Safety, response to question...................................   282
Windsor, Barbara, President and CEO, Hahn Transportation, Inc., 
  on behalf of American Trucking Associations, responses to 
  questions......................................................   303
Withers, Jan, Member, National Board of Directors, Mothers 
  Against Drunk Driving, request to include Washington Post 
  editorial, ``Plastered''.......................................   316

                              ----------                              

                       WEDNESDAY, MARCH 30, 2011
                               TESTIMONY

Belcher, Scott, President and CEO, Intelligent Transportation 
  Society of America.............................................   321
Boehlert, Hon. Sherwood, on behalf of the Bipartisan Policy 
  Center.........................................................   321
Burke, John, CEO, Trek Bicycle Corporation, on behalf of the 
  Bikes Belong Coalition.........................................   321
Caldwell, Kathy J., P.E., F.ASCE, President, American Society of 
  Civil Engineers................................................   321
Calvert, Sharon, Co-Founder, Florida Alliance....................   321
Cohen, Gregory M., President and CEO, American Highway Users 
  Alliance.......................................................   321
Cox, William G., President, Corman Construction, Inc., on behalf 
  of the American Road & Transportation Builders Association.....   321
Diederich, Paul, President, Industrial Builders, Inc., on behalf 
  of The Associated General Contractors of America...............   321
Grote, Bryan, Principal, Mercator Advisors LLC, and Member, 
  National Surface Transportation Infrastructure Financing 
  Commission.....................................................   321
Jeffrey, Joe, President, Road-Tech Safety Services, on behalf of 
  the American Traffic Safety Services Association...............   321
Johnson, Ashby, AICP, Deputy Director of Transportation, Houston-
  Galveston Area Council, on behalf of the Association of 
  Metropolitan Planning Organizations............................   321
Lovaas, Deron, Federal Transportation Policy Director, Natural 
  Resources Defense Council......................................   321
McCartney, Frank, Executive Director, Delaware River Joint Toll 
  Bridge Commission, on behalf of the International Bridge, 
  Tunnel and Turnpike Association................................   321
Moore, Adrian, Vice President, Reason Foundation, and Member, 
  National Surface Transportation Infrastructure Financing 
  Commission.....................................................   321
Njord, John R., P.E., Executive Director, Utah Department of 
  Transportation.................................................   321
Poupore, Raymond J., Executive Vice President, National 
  Construction Alliance II.......................................   321
Smith, John Robert, President and CEO, Reconnecting America......   321
Stump, Jerry, Executive Vice President and COO, Wilbur Smith 
  Associates, on behalf of the American Council of Engineering 
  Companies......................................................   321
Thomey, David R., Executive Vice President, Maryland Materials, 
  Inc., on behalf of the National Stone, Sand & Gravel 
  Association....................................................   321
Ware, Timothy, Executive Director, Mid-East Commission, on behalf 
  of the National Association of Development Organizations.......   321

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Belcher, Scott...................................................   363
Boehlert, Hon. Sherwood..........................................   375
Burke, John......................................................   384
Caldwell, Kathy J., P.E., F.ASCE.................................   391
Calvert, Sharon..................................................   403
Cohen, Gregory M.................................................   414
Cox, William G...................................................   424
Diederich, Paul..................................................   437
Grote, Bryan.....................................................   452
Jeffrey, Joe.....................................................   460
Johnson, Ashby, AICP.............................................   490
Lovaas, Deron....................................................   497
McCartney, Frank.................................................   513
Moore, Adrian....................................................   521
Njord, John R., P.E..............................................   524
Poupore, Raymond J...............................................   531
Smith, John Robert...............................................   540
Stump, Jerry.....................................................   552
Thomey, David R..................................................   557
Ware, Timothy....................................................   562

                       SUBMISSIONS FOR THE RECORD

Boehlert, Hon. Sherwood, on behalf of the Bipartisan Policy 
  Center, response to question...................................   382
Burke, John, CEO, Trek Bicycle Corporation, on behalf of the 
  Bikes Belong Coalition, response to question...................   390
Caldwell, Kathy J., P.E., F.ASCE, President, American Society of 
  Civil Engineers, responses to questions........................   399
Cohen, Gregory M., President and CEO, American Highway Users 
  Alliance, response to question.................................   422
Cox, William G., President, Corman Construction, Inc., on behalf 
  of the American Road & Transportation Builders Association, 
  responses to questions.........................................   434
Diederich, Paul, President, Industrial Builders, Inc., on behalf 
  of The Associated General Contractors of America, responses to 
  questions......................................................   449
Grote, Bryan, Principal, Mercator Advisors LLC, and Member, 
  National Surface Transportation Infrastructure Financing 
  Commission, responses to questions.............................   457
Jeffrey, Joe, President, Road-Tech Safety Services, on behalf of 
  the American Traffic Safety Services Association:

  Responses to questions.........................................   468
  Request to include ``Highway Safety Improvement Program (HSIP) 
    Obligations and Fatalities on U.S. Highways: Final Report,'' 
    June 29, 2010, prepared by Science Applications International 
    Corporation (SAIC)...........................................   471
Johnson, Ashby, AICP, Deputy Director of Transportation, Houston-
  Galveston Area Council, on behalf of the Association of 
  Metropolitan Planning Organizations, responses to questions....   494
Njord, John R., P.E., Executive Director, Utah Department of 
  Transportation, responses to questions.........................   530
Poupore, Raymond J., Executive Vice President, National 
  Construction Alliance II, responses to questions...............   534
Smith, John Robert, President and CEO, Reconnecting America, 
  response to question...........................................   549
Ware, Timothy, Executive Director, Mid-East Commission, on behalf 
  of the National Association of Development Organizations, 
  responses to questions.........................................   571

        ADDITIONS TO THE RECORD FOR MARCH 29 AND MARCH 30, 2011

Alliance for Biking and Walking; Alternatives for Community & 
  Environment; Amalgamated Transit Union; America Bikes; Apollo 
  Alliance; Association of Programs for Rural Independent Living; 
  Campaign for Community Change; Change to Win; CLASP; Kirwan 
  Institute for the Study of Race and Ethnicity; Local 
  Initiatives Support Corporation; NAACP; NAACP Legal Defense and 
  Educational Fund, Inc., National Coalition for Asian Pacific 
  American Community Development; National Complete Streets 
  Coalition; National Council of La Raza; National Housing 
  Conference; National Housing Trust; National Low Income Housing 
  Coalition; Partnership for Working Families; PolicyLink; 
  Poverty & Race Research Action Council; Public Advocates; 
  Reconnecting America; Safe Routes to School National 
  Partnership; The Leadership Conference on Civil and Human 
  Rights; The National Alliance of Community Economic Development 
  Associations; Transit Riders for Public Transportation; 
  Transport Workers Union of America, AFL-CIO; Trust for 
  America's Health; and the William C. Velasquez Institute; 
  written testimony..............................................   573
Alliance for Safe, Efficient and Competitive Truck 
  Transportation, written statement..............................   579
America Bikes, written testimony.................................   583
Andrew J. Warcaba & Associates, Inc., Andy Warcaba, President, 
  written statement..............................................   585
Apollo Alliance, written statement...............................   588
International Downtown Association, James A. Cloar, Interim 
  President, written testimony...................................   596
National Association of Area Agencies on Aging (n4a), Sandy 
  Markwood, CEO, written statement...............................   601
National Association of Home Builders, written statement.........   605
National Association of Realtors, written statement.............   608
National Complete Streets Coalition, written testimony...........   610
National Congress of American Indians, written testimony.........   613
National Steel Bridge Alliance, Roger Ferch, Executive Director, 
  written statement..............................................   619
Safe Routes to School National Partnership, Deborah A. Hubsmith, 
  Director, written testimony....................................   625
The Leadership Conference on Civil and Human Rights, Wade 
  Henderson, President and CEO, written testimony................   634
Transportation Departments of Idaho, Montana, North Dakota, South 
  Dakota, and Wyoming, written statement.........................   640
United Motorcoach Association, written testimony.................   652

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        IMPROVING AND REFORMING
                          THE NATION'S SURFACE
                        TRANSPORTATION PROGRAMS

                              ----------                              


                        TUESDAY, MARCH 29, 2011

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2167, Rayburn House Office Building, Hon. John J. Duncan, 
Jr., (Chairman of the subcommittee) presiding.
    Mr. Duncan. The subcommittee will come to order.
    Today the subcommittee is convening a 2-day hearing to 
receive testimony from the Transportation Committee on their 
ideas for the reauthorization of the Federal surface 
transportation programs.
    This reauthorization of the highway, transit, and highway 
safety programs will be more challenging than probably any 
other in recent memory. Fiscal constraints and calls for 
Congress to redefine the Federal role in surface transportation 
will require us to consider dramatic changes to these programs.
    One of the key initiatives that the subcommittee will focus 
on is streamlining the project delivery process. Time delays 
and inefficiencies in project delivery not only postpone needed 
improvements in our Nation's transportation infrastructure but 
also result in increases in the cost of the project.
    The subcommittee will also be looking at innovative 
financing. Bonding, loan programs, and public-private 
partnerships are just some of the innovative financing 
techniques that the subcommittee can utilize to leverage the 
Nation's limited Highway Trust Fund dollars.
    Additionally, the subcommittee must take a hard look at the 
number of Federal surface transportation programs. Today, there 
are more than 100 highway, transit, and highway safety 
programs. We don't need that many. We should consolidate 
duplicative Federal programs to eliminate waste and eliminate 
programs that do not serve a national need.
    I am pleased that we have the Ranking Member of the full 
committee, Mr. Rahall. I was told that Ms. Richardson was on 
the way, and I was going to wait on her, but Ranking Member 
Rahall told us to go ahead.
    We are doing this a little differently than we have done 
before. We have had a few days of Member requests in which we 
had a great number of witnesses, but we have never had quite 
this many witnesses for another type of hearing, so we are sort 
of experimenting here today. I understand that all the 
witnesses have been told that the goal is to try to limit their 
statements to 4 minutes each. We realize that we will not be 
able to exactly do that.
    But, at this point, I would like to welcome, as the Ranking 
Member of the subcommittee for the day, the gentlelady from 
California, Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Duncan. Only for today?
    Mr. Duncan. As long as you want.
    Ms. Richardson. Mr. Chairman, I would like to thank you for 
convening this hearing to discuss our surface transportation 
programs.
    Our Nation's infrastructure is falling further and further 
into a state of disrepair every day, and it is our duty as 
being members of this committee to address it and to get a 
long-term bill done.
    The SAFETEA-LU created commissions that studied the 
Nation's need to invest in our infrastructure specifically for 
the purpose of forming on the decision that we are talking 
about now. Through this process, the National Surface 
Transportation Policy and Revenue Study Commission concluded 
that we must invest $225 billion annually from all sources to 
bring our infrastructure up to a state of good repair.
    While the Federal Government is clearly not the sole source 
and we will be exploring private-public partnerships, one of 
many, we all know that it is the primary source. And, thus, our 
investment must be up to scale to meet the Commission's--the 
charter that they have given us.
    Congestion is crippling our major cities. The quality of 
our transportation system is deteriorating. Almost 61,000 
miles, 37 percent of our roads, are in poor or fair condition, 
and 152,000 bridges are 25 percent structurally deficient. When 
you consider all of these things, unfortunately the Highway 
Trust Fund is not collecting a sufficient amount of receipts to 
be able to enable us to make the repairs that are necessary.
    The President has laid out a good start of his bill 
proposal of $556 billion over 6 years. He also has included in 
that a national infrastructure bank and other innovative 
financing ideas to help bring this sort of investment to 
fruition. We saw with the American Recovery and Reinvestment 
Act that, through the $64.1 billion, it created 1.8 million 
jobs and $323 billion in economic activity.
    We must think of additional creative ways. I have suggested 
several that I believe the Chairman and our Ranking Member are 
both aware of. I won't go too much into detail with them.
    However, I will say one thing I think is absolutely 
necessary, and that is a goods movement trust fund. We have 
suggested on the table a 12 percent increase, a diesel tax, 
that has been supported by the industry itself. There are other 
things that we should consider, such as a TIFIA enhancement, 
which would enable better financing, and also considering 
making environmental changes, as well.
    Because I do know you, Mr. Duncan, I have actually cut my 
comments by about 20 percent of what I had here, because I know 
he likes us to keep it brief. But it would suffice to say, we 
are looking forward to working in a bipartisan fashion. 
However, we hope that you will be open to consider innovative 
financing as a part of that proposal.
    I yield back and submit my final statement for the record.
    Mr. Duncan. Well, thank you very much, Ms. Richardson. You 
know you are one of my favorite Members, so I appreciate that.
    And we will now hear from our distinguished Ranking Member, 
the gentleman from West Virginia, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman.
    I have no prepared statement, only to commend you for 
conducting these hearings today.
    And I commend all the witnesses, many of whom have traveled 
from far away to be here. Others, as I recognize, are right 
here in DC. So, welcome.
    I have no further comments.
    Mr. Duncan. All right. Thank you very much.
    Mr. Boswell?
    Mr. Boswell. No comment.
    Mr. Duncan. All right.
    Another way we are experimenting here today, we have 20 
witnesses today and I guess another 20 tomorrow, and then we 
have other groups that have requested--we had additional 
witnesses who wanted to testify. We wanted to give everybody a 
chance to have their say and put their statements in the record 
and so forth. We will let additional groups put their 
statements into the record, but we have sort of hit a limit on 
the number of witnesses that we could accommodate.
    But we have asked that the witnesses remain. And if there 
are any Members present at the end, we will hold questions 
until the end.
    And I ask unanimous consent that members of the Committee 
on Transportation and Infrastructure who are not on the 
Subcommittee on Highways and Transit be permitted to sit with 
the subcommittee at today's hearing, offer testimony and ask 
questions. Are there any objections?
    Hearing none, it will be so ordered.
    All right. The first witness will be Mr. William Millar, 
president of the American Public Transportation Association.
    Mr. Millar?

    TESTIMONY OF WILLIAM MILLAR, PRESIDENT, AMERICAN PUBLIC 
    TRANSPORTATION ASSOCIATION; LARRY HANLEY, INTERNATIONAL 
    PRESIDENT, AMALGAMATED TRANSIT UNION; DALE J. MARSICO, 
  EXECUTIVE DIRECTOR, COMMUNITY TRANSPORTATION ASSOCIATION OF 
AMERICA; JON MARTZ, VICE PRESIDENT, GOVERNMENT RELATIONS, VPSI, 
INC., ON BEHALF OF THE ASSOCIATION FOR COMMUTER TRANSPORTATION; 
ROBERT MCBRIDE, OPERATOR, METRO TAXI, ON BEHALF OF THE TAXICAB, 
LIMOUSINE & PARATRANSIT ASSOCIATION; JENNIFER DEXTER, ASSISTANT 
  VICE PRESIDENT, GOVERNMENT RELATIONS, EASTER SEALS; BARBARA 
   WINDSOR, PRESIDENT AND CEO, HAHN TRANSPORTATION, INC., ON 
  BEHALF OF AMERICAN TRUCKING ASSOCIATIONS; KRISTOPHER KANE, 
 PROFESSIONAL TRUCK DRIVER, QUALITY CARRIERS, ON BEHALF OF THE 
 OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION; LAMONT BYRD, 
     DIRECTOR, SAFETY AND HEALTH DEPARTMENT, INTERNATIONAL 
   BROTHERHOOD OF TEAMSTERS; DAVE LEACH, PRESIDENT AND CEO, 
  GREYHOUND LINES, INC.; PETER J. PANTUSO, PRESIDENT AND CEO, 
  AMERICAN BUS ASSOCIATION; CAPTAIN STEVE DOWLING, CALIFORNIA 
  HIGHWAY PATROL, ON BEHALF OF THE COMMERCIAL VEHICLE SAFETY 
  ALLIANCE; VERNON F. BETKEY, JR., DIRECTOR, MARYLAND HIGHWAY 
   SAFETY OFFICE, ON BEHALF OF THE GOVERNORS HIGHWAY SAFETY 
ASSOCIATION; JUDITH LEE STONE, PRESIDENT, ADVOCATES FOR HIGHWAY 
    AND AUTO SAFETY; JAN WITHERS, MEMBER, NATIONAL BOARD OF 
 DIRECTORS, MOTHERS AGAINST DRUNK DRIVING; ROBERT LETOURNEAU, 
MOTORCYCLE RIDER EDUCATION SPECIALIST, NEW HAMPSHIRE DEPARTMENT 
   OF SAFETY, ON BEHALF OF THE MOTORCYCLE RIDERS FOUNDATION; 
 MORTIMER L. DOWNEY III, SENIOR ADVISOR, PARSONS BRINCKERHOFF, 
  ON BEHALF OF THE COALITION FOR AMERICA'S GATEWAYS AND TRADE 
     CORRIDORS; KURT J. NAGLE, PRESIDENT AND CEO, AMERICAN 
ASSOCIATION OF PORT AUTHORITIES; WAYNE JOHNSON, MANAGER, GLOBAL 
  CARRIER RELATIONS, OWENS CORNING, ON BEHALF OF THE NATIONAL 
 INDUSTRIAL TRANSPORTATION LEAGUE; LISA J. MULLINGS, PRESIDENT 
   AND CEO, NATSO, INC. (NATIONAL ASSOCIATION OF TRUCK STOP 
                           OPERATORS)

    Mr. Millar. Thank you, Mr. Chairman, for the opportunity to 
testify today.
    APTA's 1,500 public and private members provide 90 percent 
of the Nation's 35 million daily transit trips.
    Enacting a well-funded, 6-year, multimodal surface 
transportation bill is one of the most important actions 
Congress can take to put our Nation's economic engine into 
higher gear and prepare the Nation for future population and 
economic growth. Conversely, further delay in passing a bill 
will have the opposite effect, forcing businesses to lay off 
employees and invest overseas, while our Nation's transit 
systems fall further behind.
    In many ways, the current Federal program works well. 
President Reagan and the Congress created the Mass Transit 
Account within the Highway Trust Fund in 1983. The steady, 
predictable funding provided by the trust fund has been 
essential to the success of the program.
    But due to underfunding, problems are becoming evident in 
deferred maintenance, overage vehicles, and more Americans 
without service. The U.S. Department of Transportation 
estimates that more than $78 billion is required to bring 
transit infrastructure up to a state of good repair, and much 
more investment is needed on an annual basis to accommodate the 
growth of the industry. We are pleased that the President's 
budget proposal begins to address these growing transit needs.
    When I talk about new ridership, I am talking not about the 
far-off future; it is happening today. If regular gas prices 
average $4 a gallon this year, as many predict, some 2 million 
new trips per day can be expected on our systems. If pump 
prices jump to $5 a gallon, at least 5 million more trips per 
day can be expected, as motorists seek to beat the high cost of 
gasoline.
    Now, turning to our ideas for improving the Federal transit 
program, let's begin with the New Starts program. New Starts is 
the main construction program for bus rapid transit, subways, 
light rail, and new commuter rail systems. But developing a 
project can take 12 years. We suggest eliminating the 
duplicative alternatives analysis stage of the program, and 
about 2 years can be saved. We also propose that the Federal 
Transit Administration reduce the number of approvals needed 
for each project. Each pause for Federal approval adds many 
months to the project schedule.
    On the formula side of the law, APTA proposes changes to 
the bus program, simplifying the Fixed Guideway Modernization 
Program, and consolidating three existing programs into a 
simplified coordinated mobility program that would allow 
communities to continue to carry out existing services or make 
changes they desire but consolidate the administrative and 
grant-making processes and costs.
    Finally, I want to speak about innovative finance. Relying 
on alternative financing mechanisms to leverage Federal 
investments makes a great deal of sense to speed up projects, 
as long as we understand that financing does not replace the 
need for expanded investment. Our experience is that current 
financing programs just don't work well for transit projects, 
but there are ideas to change that.
    APTA supports growing the TIFIA program, allowing it to 
finance a suite of multimodal projects in a region and 
modifying the so-called ``springing lien'' provision, which 
unnecessarily limits some sources of revenue to finance 
projects.
    Now, I don't have time in the short time allotted to go 
into the details of many of our other proposals, but my written 
testimony includes many suggestions, including some computer 
links to very detailed ideas.
    APTA certainly looks forward to working with the committee 
as you wrestle with the issues needed to put together a brand-
new, multimodal, 6-year, well-funded surface transportation 
program.
    Thank you, sir.
    Mr. Duncan. All right. Thank you very much, Mr. Millar. 
Good suggestions.
    And all of the full statements of all the witnesses will be 
placed in the record and reviewed by the committee leadership 
and staff.
    Our next witness is Mr. Larry Hanley, the international 
president of the Amalgamated Transit Union.
    Mr. Hanley?
    Mr. Hanley. Thank you, Mr. Chairman, for the opportunity.
    Our union represents 190,000 members in 46 States and in 9 
provinces in Canada.
    We are here today, first of all, to agree with much of what 
Bill Millar said, but also to point out that America is 
suffering from a transit crisis that is largely being ignored. 
This is a crisis throughout urban America, where service has 
been cut, fares have been increased, at a time when the Federal 
Government has spent more money in the last year on transit 
than any year in history.
    We have experienced not only layoffs of our members but the 
diminishing of service in cities throughout the country. In 
Chicago, the Transit Authority has cut 18 percent of its bus 
service and 9 percent of its rail service. In Cleveland, 12 
percent of the service has been cut. Detroit has lost 25 
percent of its transit service, while, 2 days ago, in 
Pittsburgh, despite the fact that there appears to be adequate 
local funding, the system voted to shut down 15 percent of its 
transit service.
    This comes at a time when we have wars going on around the 
world in order for us to secure more oil. And we are ignoring--
despite the investment we have made, we are ignoring the fact 
that transit needs operating aid and it needs it now. At a time 
when local budgets are under strain because of falling tax 
revenues, we believe the Federal Government should step up and 
allow flexibility in its funding programs so that our systems 
can continue to operate.
    In my home city of New York, we have seen services that ran 
for the last 100 years being eliminated on weekends and at 
nights because of the current funding crisis, despite the fact 
that there are currently projects going on to build systems 
even in New York City that won't be available for 5 or 10 years 
to our riders. This is a short-sighted view that we believe 
Congress has, and we hope that you will consider taking another 
look at it.
    Additionally, though, you should know that, in the coming 
days, Tacoma, Washington, is facing a 15 percent cut in 
service. In Birmingham, Alabama, and Long Island, New York, 
there are cuts on the table of 50 percent of the bus service 
that currently operates.
    This has to be recognized by Congress as a national crisis. 
It is not something that is restricted to one local area. And 
we call upon you to act to allow more flexibility in the 
existing program so that transit systems can survive this 
economic crisis.
    Additionally, though, I could not speak to a Member of 
Congress without addressing the fact that there was an 
accident--there were actually two accidents in New York and New 
Jersey in the last month involving fatalities in the intercity 
bus industry. And this is a problem that has come about because 
of a lack of regulation and also, significantly, a lack of 
enforcement in the intercity bus industry.
    More people are dying every month in America as a 
consequence of the Federal Government turning a blind eye to 
fierce, unregulated competition in that industry. And we call 
upon Congress to act to try and remedy that, and we certainly 
believe that it is within your reach.
    Finally, we have, our workers, America's workers, the 
people that populate the labor movement and the people that 
make this country run, have been told over and over again in 
the last 3 or 4 months that everything we have, everything we 
bargained for is unsustainable. And this comes at a time when 
Congress has approved over $1 trillion to be spent in wars in 
foreign countries.
    And I could not sit before a committee of Congress and not 
raise the specter of that, having heard how limited funding is 
available to keep our country alive, to keep our country 
moving, to keep our country working, while we squander our 
resources, our treasure, and our children on foreign wars.
    Thank you very much for the opportunity to be here today.
    Mr. Duncan. Thank you very much.
    Ms. Richardson. Mr. Chairman?
    Mr. Duncan. Yes?
    Ms. Richardson. Could I just clarify what is going to be 
the process for questions?
    Mr. Duncan. Earlier, we told all the witnesses that we 
would hold the questions until all the witnesses have had a 
chance to testify.
    Ms. Richardson. So they are all going to stay even though 
they will be changing places?
    Mr. Duncan. Yes, ma'am.
    Ms. Richardson. OK. And then could I just ask a 
clarification, as people say they want flexibility in funding, 
could they give us a specific example of what do they mean by 
that, because several----
    Mr. Duncan. Sure.
    Ms. Richardson [continuing]. Are on the table, since we are 
not going to have an opportunity to interact as they are going 
through?
    Mr. Duncan. OK. All right. Thank you very much.
    The next witness will be Mr. Dale Marsico, the executive 
director of the Community Transportation Association of 
America.
    Mr. Marsico. Good afternoon, Mr. Chairman. And thank you 
for this opportunity to be here to speak on behalf of the 4,000 
members of our association who provide and support mobility 
across our country.
    In my written testimony, I have addressed our goals for 
reauthorization using four important areas that include: the 
need for improvements in rural transit, the need for new 
efforts in our urban transit systems, the need to create a 
national strategy based on connecting communities, and the need 
to explore new and innovative instruments for investment in 
public transit.
    Since SAFETEA-LU was enacted, public and community 
transportation have created an outstanding record of success in 
responding to our Nation's mobility needs during one of the 
most challenging economic periods in our Nation's history. Our 
progress has been built on the unique and historic partnership 
for transit investment, where Federal, State, and local 
communities come together to make our dreams and visions for 
mobility a reality.
    Despite our record, our continued progress is threatened by 
the profound difficulties created by the economic situation 
that has weakened our traditional partners at the State and 
local level. Knowing that we face similar challenges at the 
Federal level, we must explore new ways to help transit during 
this period of uncertainty.
    The challenges that all transit providers face can best be 
met by allowing these operators greater flexibility to meet the 
needs for continuing services in the communities and for the 
passengers they serve.
    In urbanized communities, we believe the use of transit 
funds must be flexible enough to include emergency operating 
assistance if necessary, to avoid service cuts and fare 
increases that reduce access to jobs at the time we need that 
access as part of any economic recovery. As the committee 
knows, service cuts have dire consequences for people with 
disabilities and low-income working families, who use transit 
as their primary means of mobility.
    For rural transit, enhanced flexibility is needed to 
stretch every single State and local dollar in the face of 
these significant budget challenges.
    In both cases, we support providing this help, not as a 
major change to the existing formula programs, but by waivers 
made possible by economic triggers to help transit through 
these difficult times.
    Connecting America to jobs and health care is contributing 
to the growth of transit and transit demand in every community 
of every size. Connectivity between communities is essential to 
meeting these transportation challenges, especially for our 
growing senior populations who must travel greater and greater 
distances for health care.
    To address this challenge, we must begin linking together 
urban and rural transit today in a cohesive regional and 
national structure of intercity connections to have the 
services we need for tomorrow. We think that our Nation's rural 
transit providers and our colleagues in the intercity bus 
industry are a cost-effective means of resolving these issues.
    Like it or not, we live in a time when investments are 
necessary for us. By new tools, we need to attract new 
investment, especially from the private sector. And we support 
your efforts to make the private sector part of that 
traditional partnership of Federal, State, and local investment 
that has made our efforts successful. Our testimony includes 
ideas about this, ranging from tax credits to other kinds of 
leveraged investments.
    In closing, let me say that the transportation industry 
owes much of our success to the vision and work of this 
subcommittee. Based on that history, we know that you will 
continue to do all that you can to help us move the Nation 
forward. So I want to thank you for our opportunity to be here 
today, and I look forward to answering questions but, more 
importantly, working with you as we continue the progress we 
have made in this committee, in this Nation, for transit.
    Thank you very much, Mr. Chairman.
    Mr. Duncan. Well, thank you.
    And, as I earlier stated, we are doing this in a little 
different way. We are trying to accommodate as many different 
groups and witnesses as we can, and so we were going to run 
through all these witnesses and then get to questions at the 
end.
    But we have been joined by several different Members here. 
We have been joined by Ms. Napolitano, also Mr. Farenthold, Mr. 
Barletta, Mr. LoBiondo, and Mr. Bucshon, Dr. Harris. And if any 
of you have a brief 2-minute opening statement you would like 
to make, I will be glad to call on you at this time, if any of 
you wish to say something.
    Ms. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chair. And thank you for 
hosting this hearing. I am glad to hear from all the witnesses.
    We have great issues in our respective districts in regard 
to transportation funding. The more the delay, the more impact 
it has on communities, whether it is job creation or 
infrastructure repair. So it is critical that we continue 
moving the TEA-LU bill and being able to understand how 
critical this is to our Nation's economy and to all the 
transportation issues.
    So thank you, Mr. Chair.
    Mr. Duncan. Thank you.
    Anybody on the Republican side wish to say anything at this 
point?
    All right, thank you. Thank you very much.
    Our next witness will be Mr. Jon Martz, the vice president 
of government relations for VPSI, Incorporated, on behalf of 
the Association for Commuter Transportation.
    Mr. Martz?
    Mr. Martz. Mr. Chairman, thank you. I want to extend my 
gratitude to the committee for the opportunity to speak with 
you this afternoon.
    ACT is an association dedicated to providing commuters with 
options by engaging in public-private partnerships to encourage 
carpooling, vanpooling, telework, and transit use. Our members 
consist of private-sector employers, transportation agencies, 
transportation management organizations, and universities from 
across the country.
    First, I want to start by thanking you for your commitment 
to complete a transportation bill this year. Little is more 
important to our economy than the completion of a 6-year 
transportation bill.
    ACT would also like to commend the Chairman for the goals 
it has laid out in advance of a transportation bill. We are 
glad to see the committee recognizes that we must get the most 
out of our system by doing more with less and that we need to 
leverage funding from as many sources as possible. And these 
points form the basis of ACT's reauthorization proposal.
    For the purposes of this hearing, I would like to focus on 
congestion and a handful of simple policy solutions ACT would 
like to recommend.
    According to Inrix, a leading provider of real-time traffic 
information, a 3 percent drop in vehicle miles traveled 
resulted in a 30 percent drop in peak period congestion in 
2008. Now, a recession is not the way we would like to see 
demand managed, of course. But the experience shows that a 
small shift in the number of solo commuters during peak periods 
can provide a notable reduction in congestion.
    A survey conducted by Business Week in 2007 found that when 
commuters were provided with employer-based transportation 
options such as vanpooling, transit benefits, alternative work 
hours, and telework, one in five workers chose an option other 
than a solo commute during rush hour.
    We believe that the Washington State Commute Trip Reduction 
Program is an excellent model. This statewide program puts the 
onus on local transportation agencies to work with regional 
employers to create, manage, and market commute transportation 
options. Employers in the region have minimal requirements 
placed on them, such as posting information, and their 
participation is broadly voluntary. But through this 
partnership, the program is responsible for taking 28,000 
vehicles off the road each day during peak commuting hours, a 
reduction of 12,900 hours of delay in the Central Puget Sound 
region in 2009, and saves $99 million for the region in 
congestion costs due to lost time and wasted fuel.
    This program has also leveraged private investment in 
transportation, as employers voluntarily invested $49.4 million 
in the Commute Trip Reduction Program--more than $18 for every 
dollar provided by the State. This is remarkable, considering 
the State's biennial financial commitment to this program is 
just $6.3 million.
    We believe that the Washington State Commute Trip Reduction 
Program should serve as a model for Federal policy. And, as 
such, we support legislation introduced by Congressman Sires 
called ``Commute LESS.'' It is H.R. 260. This legislation would 
amend the planning process and help regional agencies develop 
employer-based commute relief programs. The legislation would 
accomplish this without adding any mandates to employers and 
does not require any additional revenue.
    Finally, I would be remiss if I did not mention legislation 
introduced by Congressmen Rogers of Michigan, Young, and 
Carnahan, H.R. 596. This legislation would tweak a provision in 
Title 49, making it easier for public-sector agencies to 
partner with private providers of public transportation.
    When gas prices hit $4 a gallon a few years ago, our 
company's business grew by 37 percent across 40 cities across 
the U.S., compared to a more traditional public transit growth 
of 4 percent, which in itself was remarkable. Private providers 
of public vanpool services like my company, VPSI, and 
Enterprise stand ready to bear more of the capital investment 
burden. VPSI already has over $150 million in rolling stock in 
service, and, with the passage of this legislation, we are 
willing to do more.
    It should also be noted that the vehicles used in this 
service are only produced by American auto manufacturers. We 
estimate passage of this provision would generate nearly a 
thousand manufacturing jobs.
    ACT recognizes the policies we mention here are not a 
silver bullet and that for many Americans driving alone is the 
most sensible option. But we believe these suggestions will 
help provide more options for commuters, will leverage public-
private partnerships, and will improve our transportation 
system in a responsible, efficient, and sensible manner.
    Thank you for the opportunity, and we will be ready to do 
questions later on.
    Mr. Duncan. Thank you very much, Mr. Martz.
    The next witness will be Mr. Robert McBride, the operator 
of the Metro Taxi company in Denver, Colorado, testifying on 
behalf of the Taxicab, Limousine & Paratransit Association.
    Mr. McBride?
    Mr. McBride. Good afternoon, Mr. Chairman and members of 
the committee. As you said, my name is Robert McBride, and I am 
also the president of the Taxicab, Limousine & Paratransit 
Association. Our over 1,000 member companies operate over 
100,000 passenger vehicles, transport over 2 million passengers 
each day and over 900 million passengers each year. And, as you 
said, I am also the owner of Metro Taxi in Denver, Colorado.
    The following is a summary of five of our major issues we 
would like you to consider in the next Federal transportation 
reauthorization bill.
    Private Operator Rights: We urge you to continue to support 
all current provisions of the Federal Transit Act pertaining to 
the rights of private operators to participate to the maximum 
extent feasible in the planning and provision of public transit 
services.
    Private transportation companies, like my taxicab service 
in Denver, often provide the first and last segments of a 
passenger trip, whether it is to or from the nearest transit 
terminal or airport. I am pleased to report to you that, 
increasingly, our industry is contracting with public transit 
authorities to provide cost-effective complimentary ADA 
paratransit services. This partnership between public and 
private providers needs to be improved and expanded so that, 
collectively, we can afford to enhance the general public's 
mobility options.
    Program Consolidation: We support the consolidation of the 
Elderly and Disabled Specialized Transit Program, the Job 
Access and Reverse Commute, and the New Freedom Program into 
the Coordinated Mobility Initiative while maintaining current 
law pertaining to each program in regard to the funding 
eligibility, labor protection, and private operator 
subrecipient eligibility.
    The New Freedom Program has been exceptionally valuable for 
getting wheelchair-accessible vehicles into taxicab fleets. 
Without this Federal support for these much more costly 
vehicles, this level of new paratransit taxicab service would 
not exist today.
    Distracted-Driver Legislation: We urge the committee to 
explicitly recognize in the legislation that State or locally 
licensed commercial drivers providing for-hire passenger 
transportation services may continue to have access to their 
dispatch communication service that is necessary for the 
ordinary conduct of their business, as DOT has already done for 
federally licensed drivers or commercial motor vehicles.
    RIDE Act Amendment: We request the committee support 
modifying the law such that an operator of a transportation 
terminal who is the recipient of Federal funds may not charge a 
fee to any provider or prearranged transportation service 
except for a fee that is charged to the general public or a fee 
that is determined by a DOT rulemaking for the availability of 
ancillary facilities at the transportation terminal, such as 
restrooms or vending machines made available to the drivers.
    Repeal of Federal Labor Protections: In 1964, Congress 
enacted Section 13(c), the transit labor protection provision 
of the Federal Transit Act to maintain employee rights, 
privileges, and benefits as they existed in the private sector 
prior to Federal/State assistance and to protect employees 
against any adverse effects that might result from the initial 
provision of Federal assistance to public transit.
    The goal of Congress in enacting Section 13(c), which is 
now Section 5333(b), was to protect the rights, privileges, and 
benefits of employees as they existed prior to receipt of 
Federal funds, not to create a new series of employee rights, 
privileges, and benefits. These labor protections are no longer 
needed and intrude into local decisionmaking and collective 
bargaining. In nearly every other industry where such labor 
protections existed, they have been eliminated. It is estimated 
that transit operating costs would be reduced by hundreds of 
millions of dollars if this provision is repealed. Section 
5333(b) is an unfunded mandate that is too intrusive and too 
expensive to keep on the books.
    Mr. Chairman, thank you very much, the committee, thank you 
very much, for letting us present our views today.
    Mr. Duncan. All right. Thank you very much, Mr. McBride.
    Our next witness is Ms. Jennifer Dexter, assistant vice 
president for government relations for the Easter Seals 
Society.
    Thank you very much.
    Ms. Dexter. Thank you, Chairman Duncan and members of the 
subcommittee. We really appreciate the opportunity to appear 
before you today.
    In addition to my role at Easter Seals, I serve as the co-
chair of the Consortium for Citizens with Disabilities 
Transportation Task Force as well as the Senior Transportation 
Task Force.
    Easter Seals is very proud of our long history working to 
increase the mobility of people with disabilities and older 
adults. For many years, we have operated a federally funded 
Project ACTION, as well as the National Center on Senior 
Transportation that we operate in cooperation with the National 
Association of Area Agencies on Aging, both through cooperative 
agreements with the Federal Transit Administration.
    Too often, people with disabilities of all ages lack access 
to affordable, accessible, and reliable transportation options. 
The 2010 Harris Poll, funded by the National Organization on 
Disability, estimated that 34 percent of people with 
disabilities report having inadequate access to transportation. 
This is compared to only 16 percent of the general public.
    Our specific recommendations are covered in depth in my 
written testimony, but they include: increasing overall funding 
for transit and population-specific programs, such as 5310, 
JARC, and New Freedom, and allowing 5310 funds to be used for 
operating assistance; making sure that there are protections in 
place to assure that the needs of specific populations and 
providers are protected in program consolidation efforts; 
increasing the input, involvement, and DOT monitoring of 
stakeholder input into all transportation planning processes; 
creating a dedicated resource to increase access to mobility 
management services; and continuing and increasing existing 
targeted technical assistance and education efforts.
    In the short amount of time I have remaining, I would like 
to provide you with a very brief example of how a relatively 
small Federal investment can help increase the ability of 
someone with a disability or an older adult to live, learn, 
work, and play in their community.
    One of the common complaints that people with disabilities 
and older adults have is that, for some people, the best and 
often only way to get around during their daily routines if 
they can no longer drive is a taxi. However, many taxi drivers 
don't have the awareness that is needed of how to best serve 
someone with a disability and are either reluctant to pick 
somebody up or make avoidable mistakes that are detrimental to 
the rider in some way.
    This is exactly the kind of issue that Project ACTION likes 
to address. In response to this issue, we developed a small 
pocket guide for drivers. It is designed to be kept on the 
visor with all the other materials that the driver might need. 
It has simple guidance on good customer service for someone who 
needs assistance. We developed it in partnership with our 
friends, the taxi operators, and made it so it met their needs.
    With this simple guide, we have taken the burden off of the 
individual driver to be an expert on serving people with 
disabilities and made it easy for them to get the information 
they need and increase the mobility of people with 
disabilities. This piece is available for free through our 
clearinghouse, and we have shipped out thousands of them.
    We knew the piece was useful and successful when our CEO 
heard back from our affiliate in Australia that they had seen 
the piece in use in taxis over there.
    For those who want more guidance, it is part of a full-
scale Taxi Toolkit that has all sorts of resources available. 
And it has also been replicated for both transit providers and 
motorcoach operators.
    I mention this not only because it is a product we are very 
proud of, which we are, but because it is a great example of 
where having resources available to help public-private 
partnerships develop and find solutions on their own, with all 
of the stakeholders participating, can pay great dividends. It 
is a process that has been replicated daily in communities 
throughout the country for a variety of mobility issues.
    Addressing our recommendations in the reauthorization will 
help to assure that resources are available and programs have 
sufficient flexibility to continue to respond to real people's 
mobility needs and new approaches can be formulated to meet 
changing needs.
    Thank you for your consideration. I look forward to 
continuing this dialogue.
    Mr. Duncan. Thank you very much, Ms. Dexter.
    We have now been joined by three additional Members: Mr. 
Nadler, Mr. Sires, and Mr. Crawford.
    Do any of you wish to make any 2-minute statement at this 
time?
    All right. Thank you very much.
    Our next witness is Ms. Barbara Windsor, the president and 
CEO of Hahn Transportation, Incorporated, testifying on behalf 
of the American Trucking Associations. And Ms. Richardson 
pointed out to me that Ms. Windsor is the first woman who has 
ever been the chairman of the American Trucking Associations. 
So, certainly, congratulations are in order. And we are pleased 
to have you with us today.
    You may begin your testimony.
    Ms. Windsor. Thank you, Mr. Chairman.
    Mr. Chairman Duncan, Ranking Member Rahall, and members of 
the subcommittee, thank you so much for inviting me to testify 
on behalf of the American Trucking Associations. I am Barbara 
Windsor, president and CEO of Hahn Transportation, based in New 
Market, Maryland, and I do serve as the ATA chairman, the first 
female in 77 years.
    Mr. Chairman, a safe and efficient system of highways is 
essential to our country's economic well-being, security, and 
overall quality of life. Your predecessors recognized this 
reality by creating the Interstate Highway System, which has 
served our country well. Every day, freight flows through our 
ports, across our borders, and on our rail, highway, air, and 
water systems as part of a global, multimodal transportation 
logistics system.
    Highways are the key to this system. Trucks move 70 percent 
of our Nation's freight tonnage and earn 82 percent of freight 
revenue. Unfortunately, our current highway system no longer 
meets our needs. In 2009, drivers in metropolitan areas wasted 
4.8 billion hours sitting in traffic and burning 3.9 billion 
gallons of excess fuel at a cost of $115 billion. The cost to 
the trucking industry was $33 billion.
    Mr. Chairman, incremental solutions will not allow us to 
meet the Nation's current and future transportation 
requirements. While we know that Congress is not receptive to a 
fuel tax increase, we would like the record to reflect that the 
trucking industry is willing to accept a fuel tax increase to 
help fund infrastructure.
    Tolls on existing non-tolled Interstate Highways are not 
the answer. Tolls are a very inefficient means of revenue 
collection, and they cause diversion of traffic to alternate 
routes which are usually less safe.
    In addition to more revenue, the Federal surface 
transportation program must be fundamentally reformed to 
maximize available resources. ATA supports a consolidated 
highway program with eligibility limited to the National 
Highway System and other highways with significant passenger 
and freight traffic.
    Funding should also be dedicated toward addressing critical 
bottlenecks on heavily traveled freight corridors. Furthermore, 
programs with eligibilities which are clearly not in the 
national interest must be eliminated or paid for by other 
sources.
    In addition, ATA supports a moratorium on highway earmarks. 
Project selection must be based on sound economic analysis. We 
also need to cut government red tape and streamline the project 
delivery process by reforming rules that extend the timeline 
for project delivery by 7 to 10 years.
    Mr. Chairman, we can also more effectively utilize our 
highways through the use of more productive trucks. A new 
Federal-State partnership is necessary to promote truck size 
and weight reforms that improve safety, lower freight costs, 
reduce emissions, and protect public investment in our highway 
infrastructure.
    Now, turning to safety, the trucking industry is the safest 
it has ever been and continues to get even safer. However, we 
believe that we can do better if we recognize that truck safety 
is about more than just regulation; it is about understanding 
the factors that increase crash risk and behaviors and events 
that cause crashes. Future FMCSA rules and programs will only 
succeed to the degree that they truly address crash risk and 
causation.
    The most innovative and effective future oversight programs 
will be those which provide carriers with the tools to support 
carrier-based safety improvements. Our written statement 
includes recommendations addressing fatigue, a drug and alcohol 
clearinghouse, speed, and, perhaps most importantly, active 
safety technologies that lower risk and prevent crashes. We 
also have included several hazardous materials program 
recommendations for the committee's consideration.
    Mr. Chairman, thank you for the opportunity to offer our 
views on how, collectively, we can improve truck and highway 
mobility and safety.
    Mr. Duncan. Well, good job. Thank you very much, Ms. 
Windsor.
    And next we are honored to have Mr. Kristopher Kane, a 
truck driver for Quality Carriers, who is testifying on behalf 
of the Owner-Operator Independent Drivers Association.
    Mr. Kane. Thank you. And I want to clarify that I am not 
here representing Quality Carriers; I am here representing 
OOIDA.
    My name, once again, is Kristopher Kane. I am involved in 
the trucking industry now for 25 years, as both an owner-
operator as well as a company driver. OOIDA represents the 
interest of small-business trucking professionals and 
professional truck drivers.
    I will keep my comments brief and sum up our written 
testimony. In short, truckers are one of the largest 
contributors to the Highway Trust Fund of our Nation's highway 
system. Every time we fuel, buy new trucks, trailers, tires, 
and write a check out for the annual highway heavy-vehicle 
usage tax, we contribute to that fund. In fact, while heavy-
duty trucks only account for 7 percent of our highway's 
traffic, OOIDA members and other truck companies contribute 
more than 36 percent of the money going into the Highway Trust 
Fund each year.
    Despite this investment, we continue to see efforts to 
divert the trust fund dollars away from highways and toward 
other programs that have little or no connection to improving 
the flow of interstate commerce. The next highway bill 
represents an opportunity to halt those diversions and refocus 
the trust fund investments toward their original purpose: 
highways.
    We are willing to entertain a variety of funding mechanisms 
to replenish the Highway Trust Fund, providing that those funds 
are used to maintain our highway infrastructure as well as make 
the improvements on our Nation's roads and bridges.
    As far as improving other programs, we believe the safest 
trucks on the road are those driven by well-trained, 
experienced drivers who have the ability to travel at the same 
rate of speed and traffic flow. In addition, OOIDA does not 
support any mandates which unfairly burden truckers and 
compromise their privacy, such as on-board electronic 
recorders, or EOBRs.
    Furthermore, OOIDA believes the most pervasive problem in 
the trucking industry's impact on drivers' efficiency is 
excessive detention time. That is long, unpredictable, and 
often uncompensated time that truck drivers spend on the dock 
waiting to be loaded and unloaded. Detention time is more than 
just a mere inconvenience problem for the truckers. We deal 
with it on a daily basis, and it costs society an estimated 
$6.5 billion a year.
    I personally have been subjected to this detention time 
throughout my career. One example was one time I was hauling 
frozen turkeys from Pennsylvania to New Jersey. I arrived at 
the warehouse for a scheduled appointment on a Wednesday only 
to find out there was a computer glitch and I had to wait until 
Friday evening to unload the trailer. I sat there for 3 days 
and 2 nights.
    Because of the warehouse mistake, I wasted time, fuel, and 
the opportunity to be with my family. I was not compensated for 
their mistake. The mistake did not cost the warehouse anything. 
In fact, it worked to their benefit because we were able to 
keep their product on my refrigerated trailer until they were 
ready to receive it.
    Unfortunately, this example is not an uncommon experience 
for truck drivers, who are regularly detained by shippers in 
receivement for hours and even days at a time, essentially 
because the driver's time is not accounted for in the supply 
chain. Congress has an opportunity to address this issue. I 
would like to thank Congressman DeFazio for introducing this 
bill on this issue.
    Thank you.
    Mr. Duncan. All right. Thank you very much, Mr. Kane.
    Our next witness is Mr. LaMont Byrd, the director of the 
Safety and Health Department for the International Brotherhood 
of Teamsters.
    Mr. Byrd?
    Mr. Byrd. Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you for the opportunity to appear here 
today to convey our views on issues that we feel will improve 
our surface transportation programs, especially those related 
to motor carrier safety.
    While time permits me to discuss only a few of our issues, 
our written testimony provides a more comprehensive overview.
    The International Brotherhood of Teamsters represents 
approximately 600,000 commercial drivers who are among the 
safest and most experienced drivers on our Nation's roads. 
Truck drivers deserve to have a workplace, our Nation's roads, 
that is as safe as any factory floor. Unfortunately, that is 
just not the case.
    While there appears to be a downward trend in fatalities 
and injuries involving large trucks during the last few years, 
it is difficult to determine the exact reasons for these 
reductions. Certainly, increased roadside inspections, 
compliance reviews, and enforcement activities and initiatives 
by the Federal Motor Carrier Safety Administration played a 
role, but external factors like the recession and the 
likelihood that there has been a significant reduction in 
vehicle miles traveled also contributed. Nevertheless, 3,380 
fatalities and crashes involving large trucks in 2009 is just 
unacceptable.
    Many trucks operated by teamster members are equipped with 
speed limiters, and our drivers report no significant problems 
or safety hazardous as a result of using these devices. Based 
on our experience, the teamsters could support the use of 
speed-limiting devices industrywide, provided that these 
devices allow trucks to attain sufficient speeds to safely 
merge on to highways, pass slow-moving vehicles, and maintain a 
safe speed while traveling uphill.
    While the Federal Motor Carrier Safety Administration 
issued a final rule that requires the use of electronic onboard 
recorders for motor carriers that have had a history of serious 
noncompliance with the hours-of-service rule, there have been 
several legislative proposals introduced that will require the 
use of EOBRs in all interstate commercial motor vehicles.
    The teamsters union believes that EOBR technology may be 
useful in helping to enforce compliance with the hours-of-
service regulation, but it does not guarantee compliance with 
the rule. Drivers will still have to manually input data 
concerning time spent on duty not driving; thus, cheaters will 
still have the opportunity to cheat.
    We also think that EOBRs must be tamperproof and have the 
capability to accurately identify drivers who are operating a 
specific piece of equipment.
    We strongly recommend that, as legislation moves forward 
mandating the use of EOBRs, that they be used only for 
compliance for hours of service and not to monitor the 
productivity of drivers.
    The teamsters union has a long history of being proactive 
in deterring the abuse of drugs and alcohol in the trucking 
industry. For well over 2 decades, the union has negotiated 
drug and alcohol testing programs with many of our employers in 
the trucking industry. That said, we are aware of several 
legislative proposals calling for a national clearinghouse for 
drug and alcohol testing records.
    While we have significant concerns about the creation of a 
clearinghouse with respect to driver privacy issues, we would 
prefer a national clearinghouse operated by the Federal 
Government rather than a database where information is 
collected on a State-by-State basis and managed by the States.
    The clearinghouse must be able to: one, protect the 
driver's confidentiality; two, provide a reasonable mechanism 
for drivers to learn of and correct reporting errors; and, 
three, create a uniform and fair method for expunging the 
records of drivers who have been successfully rehabbed.
    In closing, none of this safety agenda can be accomplished 
without dedicated resources. The prospect of looming budget 
cuts with no real increase in the revenue stream may put the 
United States even further behind other nations in developing a 
transportation system that allows us to compete in a global 
market.
    Thank you. And I will remain available for any questions 
that you may have.
    Mr. Duncan. Thank you very much, Mr. Byrd.
    Our next witness is Mr. Dave Leach, president and CEO of 
Greyhound Bus Lines, Incorporated.
    Mr. Leach?
    Mr. Leach. Chairman Duncan and members of the subcommittee, 
I am pleased to present Greyhound's views on the vital role 
intercity buses can play in bringing cost-effective 
improvements to the Nation's surface transportation programs.
    Intercity buses are the most energy-efficient, 
environmentally clean, cost-effective, and flexible passenger 
transportation mode, yet they are largely off the grid when it 
comes to Federal, State, and local planning. It is a rare day 
when intercity buses are integrated into transportation 
planning in a meaningful way, and far less than 1 percent of 
Federal public and intercity transportation funding goes to 
intercity buses.
    Here are six steps we recommend that the subcommittee take 
to enable intercity buses to help meet its objectives of better 
utilization of underutilized assets, doing more with less, 
streamlining delivery, and developing public-private 
partnerships.
    Number one, give States more flexibility in implementing 
the Section 5311(f) intercity bus program by making the FTA's 
private match pilot program permanent. By allowing States to 
use all of a private operator's unsubsidized costs as a private 
match and by letting States use the match for any Section 5311 
project, in the pilot program's 3 years, States have been able 
to provide new intercity service to 240 communities nationwide 
without a dime of extra Federal expense.
    Number two, assuming there is going to be an intercity 
component to reauthorization, give States the flexibility to 
provide capital for the development of intercity bus networks. 
These can provide attractive alternatives to the private auto 
at a tiny fraction of the capital costs of intercity rail and 
with no subsidized operating costs. Services like Greyhound's 
Bolt Bus and Greyhound's Express have demonstrated the 
popularity of bus services. The industry's problem is a lack of 
capital for new equipment. In the last 12 years, the annual 
number of motorcoaches in our industry has fallen by 65 
percent.
    Number three, continue the Over-the-Road Bus Accessibility 
Program to help Greyhound and others to meet the continuing 
Federal mandate for a wheelchair lift on every fixed-route bus 
it acquires. This mandate adds almost 10 percent to the cost of 
a new bus. Without this program, Greyhound will have to reduce 
its bus purchases by 10 percent. A reduction in fleet will mean 
less or no service on routes with low ridership.
    Number four, integrate intercity buses into Federal, State, 
and local planning so that their transportation and 
environmental benefits are fully utilized.
    Number five, ensure that local and State officials treat 
privately operated intercity buses the same as public transit 
buses with regard to access to and charges paid for federally 
funded HOV and HOT lanes and tolled facilities.
    And last but not least, provide incentives for intermodal 
projects including intercity buses and make those projects 
easier to plan, fund, and implement.
    Greyhound believes that these steps will enable privately 
operated intercity buses to play a substantial role in creating 
an improved and more cost-effective surface transportation 
system.
    Thank you.
    Mr. Duncan. Thank you very much, Mr. Leach.
    The next witness is Mr. Peter Pantuso, president and CEO of 
the American Bus Association. Mr. Pantuso?
    Mr. Pantuso. Thank you, Mr. Chairman.
    ABA is the trade association for the private motorcoach 
over-the-road industry as well as for the tour and travel 
industry, all of whom have a deep interest in transportation 
reauthorization. Our motorcoach members represent nearly 60 
percent of all motorcoaches on the road today and provide a 
variety of expanding transportation services to more than 760 
million passengers annually.
    The private motorcoach industry, which operates with 
virtually no subsidy, is looking less for funding than it is 
for opportunities--opportunities to access existing programs 
and existing funding sources. A full presentation of our 
reauthorization proposals is appended to my testimony.
    Our first proposal is that the private bus industry be 
fully involved in the planning process. A letter that was 
recently sent by our vice chairman cites an example in 
Allentown, Pennsylvania. And it reads, ``The city of Allentown 
Parking Authority planned and built the Allentown 
Transportation Center, an intermodal facility. Then it asked 
our company and other bus operators to move into it only after 
it was built. However, it was in the wrong location, without 
accommodations needed for intercity regular route service 
operations and for our passengers. We have seen this happen 
repeatedly and believe the consultation requirement that 
currently exists for these projects should be enforced.''
    We also suggest that a staff position in the Office of the 
Secretary be created that provides support to and reduces 
obstacles for private bus transportation service and all 
private providers. The conversation about public-private 
partnerships, to date, has focused mostly on construction. We 
believe that should be expanded so that the dialogue also 
includes passenger transportation.
    Our second proposal is to reverse the trend of rural 
communities losing their intercity bus service by continuing 
the rural intercity program that Mr. Leach mentioned, the 
5311(f) program, and the private match pilot program.
    Third, ABA proposes an Essential Bus Service. The current 
Essential Air Service program is continually shrinking, yet its 
costs continue to expand. Congress should require the U.S. 
Department of Transportation to fund a pilot Essential Bus 
Service program that also gives operators meaningful access to 
existing hub airports and ground transportation facilities.
    Our fourth proposal is the continuation of the ADA grant 
program providing wheelchair-lift assistance to comply with the 
1998 requirements for intercity coaches. Grants available under 
the SAFETEA-LU for ADA compliance have been less than one-
fourth of the total cost, which, estimated by the 
Transportation Research Board, exceeds $40 million annually.
    And, finally, there is a need for capital to revitalize the 
industry. Due in part to continuing Federal mandates, the 
average purchase price of a coach has increased from $340,000 
in 2000 to $500,000 today. New safety mandates coming from 
Congress and from NHTSA will easily increase the cost another 
$60,000 to $75,000 per coach. Increased costs have driven up 
the average age of the fleet by nearly 40 percent. And if that 
continues, we will see a greater loss of these small 
businesses, our domestic motorcoach manufacturing base, local 
tourism dollars, and we will see increased congestion as people 
move from buses to cars. Financial assistance could come 
through a combination of tax credits, grants, low-interest 
loans, access to TIFIA funds, and capital under the 
infrastructure bank.
    Mr. Chairman, members of this committee, ABA believes our 
proposals are workable, reasonable, and necessary to ensure 
that our transportation system continues to serve our 760 
million passengers annually.
    Thank you.
    Mr. Duncan. We are always honored to be joined by the 
former Chairman of the full committee, the gentleman from 
Alaska, Mr. Young.
    Do you have my statements you wish to make at this time?
    Mr. Young. No. Thank you, Mr. Chairman, for asking, but let 
us hear the witnesses, and I may have a couple questions later 
on.
    Mr. Duncan. Thanks very much.
    Our next witness is Captain Steve Dowling of the California 
Highway Patrol on behalf of the Commercial Vehicle Safety 
Alliance.
    Captain Dowling.
    Mr. Dowling. Thank you.
    Chairman Duncan, Ranking Member Richardson, and members of 
the subcommittee, I am Steve Dowling. I am president of the 
Commercial Vehicle Safety Alliance, and I appreciate the 
privilege of addressing you this afternoon.
    CVSA is an organization of State and provincial officials 
that are responsible for the administration and enforcement of 
commercial motor vehicle safety laws for the United States and 
Mexico.
    Our written statement addresses six issues that we 
submitted, and those include carrier exemptions to the 
regulations, investment in safety technologies, and 
registration credentialing and data integrity.
    But today I would like to address three of the other topics 
that were submitted, and the first is the Motor Carrier Safety 
Grant Program. The core State safety grant program is the Motor 
Carrier Safety Assistance Program, and since its inception, 
this program has maintained the same general structure while 
the approach to enforcement has evolved. CVSA believes that 
each of the current grant programs contributes to the mission 
of reducing truck and bus fatalities and collisions, but we 
also believe that there is a better way to align these programs 
to allow the States more flexibility in allocating grant moneys 
to achieve the desired results.
    CVSA supports the designation of three umbrella grants 
identified in FMCSA's fiscal year 2012 budget proposal. We 
particularly like the idea of the Compliant Safety and 
Accountability, or CSA, umbrella grant as it allows data to be 
used for targeted enforcement of motor carriers that have 
serious safety issues. However, CSA and its implementation has 
greatly increased data challenges that must be adjudicated by 
the States. And therefore, when this committee looks at the 
level of funding, we would request that this issue be taken 
into consideration.
    With respect to the maintenance of effort, or MOE, 
requirements in the MCSAP, the current method of shifting the 
time period for which MOE formula is based has become a serious 
burden for the States. CVSA recommends the MOE formula be tied 
to a stationary period, specifically the three fiscal periods 
preceding the enactment of the Motor Carrier Safety Improvement 
Act of 1999, and then indexed for inflation.
    As evidenced by FMCSA's intervention model results, there 
is a direct correlation between enforcement and safety. 
Therefore, we urge the committee to, at a minimum, sustain 
funding of State programs at current authorization levels.
    Next I would like to discuss bus safety.
    DOT is making reasonable progress, but more needs to be 
done. One specific step would be to restore the States' ability 
to conduct en-route bus inspections. Restrictions in the 
current authorization prohibit en-route bus inspections except 
in the case of imminent hazard. The same legislation encourages 
roadside inspection for vehicles carrying freight. CVSA 
believes this contradiction must be corrected by placing a 
priority on passenger transportation and lifting the en-route 
inspection prohibition on buses.
    Advancement in crashworthiness and passenger protection 
systems need to be accelerated into the market. Proven 
solutions do not need further studies, and seatbelts should be 
mandatory.
    My final topic is truck size and weight. We realize there 
is an interest in improving truck productivity, and CVSA 
believes the first step in this process is to conduct a 
comprehensive truck size and weight study, and safety must be 
in the forefront of all discussions and analysis. Specifically, 
performance testing of various vehicle configurations should be 
conducted to ensure increasing productivity does not come at 
the expense of safety and bridge and highway infrastructure 
protection.
    Thank you very much for the opportunity to share our 
recommendations to further improve highway safety.
    Mr. Duncan. Thank you very much.
    I am so pleased that all of the witnesses thus far have 
said a lot in a short amount of time, and we are moving this 
hearing along much better than I expected.
    Our next witness is Mr. Vernon Betkey, the director of the 
Maryland Highway Safety Office, testifying on behalf of the 
Governors Highway Safety Association.
    Mr. Betkey. Thank you, Mr. Chairman and members of the 
committee, for this opportunity to testify today.
    The members of the Governors Highway Safety Association are 
responsible for administering the State highway safety 
behavioral programs, and they do this with one formula grant 
program, seven incentive grant programs, and two penalty 
transfer programs.
    In the past these programs have been authorized in a 
piecemeal fashion without an overall National Strategic Highway 
Safety Plan with national goals. The association, along with 
many of its highway safety partners, is developing a national 
plan. The vision for this plan is zero motor vehicle 
fatalities, with an interim goal of halving fatalities by 2030. 
GHSA recommends that the vision and the goal be incorporated 
into the next authorization and encourages the States to work 
toward this goal in their Strategic Highway Safety Plans.
    The association recommends a streamlined approach to the 
behavioral highway safety funds. We support a single behavioral 
safety program, excluding the data program, with earmarks for 
impaired driving, occupant protection and motorcycle safety. 
The association strongly recommends a single application and a 
single application deadline, with all funds allocated by 
October 1. This would make for a more efficient planning 
process in the States.
    GHSA worked with the National Highway Traffic Safety 
Administration to identify a set of 15 performance measures 
that States are using right now in their highway safety plans 
and programs.
    The GHSA supports this performance-based approach for 
behavioral funds and recommends that the reauthorization 
legislation focus on the most important measures, which is 
total fatalities, fatality rates, total serious injuries, and 
using that on a 5-year moving average. In addition, we would 
recommend a more standardized definition for ``serious 
injuries.''
    The collection and analysis of data is extremely important 
to State planning and evaluation, and GHSA recommends an 
increase in the Section 408 Data Improvement Program. The 
association supports the requirements for States to develop a 
Strategic Highway Safety Plan under Section 148 Highway Safety 
Improvement Program. The process has helped our members 
strengthen the relationships with other partners in their 
States and also in local agencies involved in highway safety, 
and with a more focus on limited resources. GHSA recommends 
updates to the SHSP at least once between authorizations.
    When it comes to the carrot and the stick, the association 
fully supports the carrot approach and adamantly opposes new 
sanctions, as States already are sanctioned for failure to 
enact seven different highway safety laws, and the States are 
making a lot of progress in some of the other areas such as 
high BAC laws, texting laws, graduated driver's license laws. 
And we discourage taking away the Federal funds that could 
possibly create more jobs.
    In summary, GHSA recommends the consolidated and 
streamlining of the grant process, a National Strategic Highway 
Safety Plan, and a continuation of the State strategic highway 
safety planning requirements, more emphasis on performance-
based planning, a greater emphasis in data collection and 
analysis, and no sanctions.
    Thank you for the opportunity to testify today, and we will 
be available for questions.
    Mr. Duncan. Thank you very much, Mr. Betkey.
    Our next witness is Ms. Judith Lee Stone, president of the 
Advocates for Highway and Auto Safety.
    Ms. Stone.
    Ms. Stone. Good afternoon, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me to testify today.
    Last year, Advocates for Highway and Auto Safety celebrated 
its 20th anniversary. As we have done in the past 2 decades, we 
want to make sure that the transportation reauthorization bill 
enacted in Congress this year has a strong safety component.
    SAFETEA-LU, enacted in 2005, has resulted in the largest 
surface transportation and infrastructure investment in our 
Nation's history. Yet during just this authorization timeframe, 
over 200,000 people will have been killed on our roads and 
highways and more than 10 million injured, at an economic cost 
to society of well over $1 trillion.
    Let me briefly recommend some key areas where there are 
tremendous opportunities for safety.
    Without adoption of the safety provisions, the next 5 years 
will likely result in another 200,000 people dying on our 
highways and millions more injured at a numbing human and 
economic cost. We can't let this happen, and we don't have to 
let this happen.
    One of the most significant obstacles in reducing highway 
deaths and injuries is the lack of uniform traffic safety laws 
among States. Included in my statement are several maps showing 
that too many States lack some of the most fundamental safety 
laws. This is where Federal leadership is crucial.
    In the past 20 years, when Congress reinforced the need for 
States to pass life-saving laws by invoking sanctions, States 
promptly acted. This has been successful in achieving uniform 
State adoption of a national 21 drinking age, minimum standards 
for licensing commercial drivers, a zero tolerance law to 
combat underage drinking and driving, and a .08 BAC law.
    It is important to note that every time Congress used a 
sanction, every State adopted the law. Not one State lost a 
single dollar of Federal highway funds, and many thousands of 
lives have been saved.
    It is even more important to realize, especially in these 
days, that highway safety sanctions do not cost any money to 
implement. States pass the laws, sanctions are not applied, and 
everyone walks away a winner. It is time for Congress to use 
this approach to encourage State action on several essential 
and life-saving laws.
    Every State needs a strong and comprehensive teen driving 
law. Motor vehicle crashes remain the leading cause of death 
for teenagers in every State. Since 2003, more than 53,000 
deaths occurred in motor vehicle crashes involving young 
drivers. There is a patchwork quilt of teen driving laws across 
the country that jeopardizes the safety of our children. It 
makes no sense to allow a system where teens in some States are 
better protected than in others.
    Advocates support the Safe Teen and Uniform Driver 
Protection, or STANDUP, Act, setting minimum standards for 
State teen driving laws. The requirements in the bill are based 
on recommendations by the NTSB, the American Academy of 
Pediatrics, safety experts, and extensive research and studies. 
Any doubts about public support for getting these laws on the 
books in every State are put to rest by recent scientific 
surveys saying that in large percentages parents want licensing 
rules that go beyond the STANDUP Act, and 74 percent of teens 
themselves approve of a single comprehensive law that 
incorporates the key elements of improved teen driving laws.
    Every State needs a primary enforcement seatbelt law. Last 
year about half of those killed in crashes were unbelted. In 
SAFETEA-LU, Congress provided $500 million in incentive grant 
funds to encourage State adoption of more effective belt laws. 
Only 10 States acted these past 5 years. In fact, in 2010, only 
one State adopted a primary enforcement seatbelt law, and 19 
States still need it.
    Every State needs an ignition interlock law to curb drunk 
driving, and this is an important measure to get tougher on 
drunk driving, and these devices keep impaired drivers off the 
road, including first-time offenders.
    Every State needs to be ban texting while driving. In 2009, 
there were an estimated 5,474 fatalities and nearly half a 
million injuries and crashes where driver distraction was a 
factor. Adoption of these laws for all drivers sends a message 
to the public that text messaging while driving is unsafe and 
illegal.
    Every State needs an all-rider motorcycle helmet law. 
Motorcycling deaths have doubled in recent years. In 2009, over 
4,000 motorcyclists were killed and 90,000 were injured. Before 
2009, motorcycle fatalities increased every year for more than 
a decade.
    Research conclusively and convincingly shows that all-rider 
helmet laws save lives, prevent disabling brain injuries and 
reduce medical costs, but currently only 20 States and DC 
require all motorcyclists to use a helmet, and these laws are 
under attack. Last year more laws were introduced in State 
legislatures to repeal all-rider helmet laws rather than to 
enact them.
    And finally, we need to stop increases in truck sizes and 
weights. In the decade from 2000 to 2009, an average of over 
4,000 people died in truck crashes each year, and more than 1.1 
million suffered costly injuries. Oversized, overweight trucks 
are dangerous and destructive. As trucks get bigger and 
heavier, they have longer stopping distances, they are more 
difficult to maneuver in the traffic stream, they have an 
increased risk of rollover, and they destroy roads and bridges.
    Unfortunately, trucking and shipping interests are already 
prodding Congress to increase Federal truck size and weight 
laws, to relax the 1991 freeze on large double and triple 
trailer trucks, to set up pilot programs and give special 
weight exemptions and options to States. It is time to stop 
this deadly race, and we are in support of enacting the Safe 
Highways and Infrastructure Preservation Act.
    I just want to close by saying that the quality of life for 
all Americans depends on a safe and reliable, economical and 
environmentally sound surface transportation system. There are 
no acceptable excuses for putting the brakes on adopting proven 
safety measures that will significantly reduce our Nation's 
death and injury toll and health care costs as well.
    Thank you.
    Mr. Duncan. Very good suggestions, Ms. Stone, particularly 
on the texting while driving. I don't know, it is awfully hard 
to stop, I suppose, but certainly people shouldn't be doing 
that.
    Our next witness is Ms. Jan Withers, a member of the 
national board of directors of the Mothers Against Drunk 
Driving, and is here to testify on their behalf.
    Ms. Withers.
    Ms. Withers. Thank you, Chairman Duncan and Ranking Member 
Richardson, for allowing me the opportunity to speak on behalf 
of Mothers Against Drunk Driving.
    Drunk driving continues to be the leading cause of death on 
our Nation's roads. In 2009, 10,839 people were killed in drunk 
driving crashes. As a Nation, we should find these numbers 
inexcusable.
    The statistics we hear are not just numbers to me. My 15-
year-old daughter Alisa was killed by a drunk driver. She was 
my child, not a number. And she is why I am here representing 
MADD today.in 2006, following research and strategies proven to 
work, MADD announced its Campaign to Eliminate Drunk Driving, 
which, first, supports more resources for high-visibility law 
enforcement; second, requires all convicted drunk drivers to 
install an ignition interlock device; and lastly, turns cars 
into the cure through the development of advanced in-vehicle 
technology.
    An ignition interlock is a breath-test device linked to the 
vehicle's ignition system. The interlock allows a DUI offender 
to continue to drive wherever they need to go. They just can't 
drive drunk. The research on interlocks is crystal clear. Since 
New Mexico and Arizona have implemented all offender interlock 
laws, DUI fatalities in those States have been reduced by over 
30 and 40 percent respectively.
    But MADD is now hitting roadblocks from the alcohol 
industry and DUI defense attorneys as we try to pass this law 
in State legislatures. In my own home State of Maryland, we 
have one particular DUI defense attorney who chairs the 
Judiciary Committee, where for the last 3 years he has refused 
to hold a vote on meaningful ignition interlock legislation. I 
have submitted a Washington Post editorial on the subject for 
the record. We need this committee's help to work to find ways 
in the reauthorization bill to increase the number of DUI 
offenders required to use the ignition interlock device.
    While interlocks are currently the most proven technology 
available to stop drunk driving, a program is under way to 
provide an advanced in-vehicle option for consumers, which 
could potentially eliminate drunk driving.
    The Driver Alcohol Detection System for Safety, or DADSS, 
is a result of a research agreement between NHTSA and many of 
the world's leading auto manufacturers. The purpose of this 
project is to research, develop and demonstrate noninvasive in-
vehicle alcohol detection technologies that can very quickly 
and accurately measure the driver's blood alcohol content. If a 
driver's BAC is at or about the illegal limit of .08, the car 
will not start. The Insurance Institute for Highway Safety 
estimates that over 8,000 lives could be saved if the 
technology is widely deployed in the U.S.
    MADD asks this committee to authorize $10 million per year 
to continue the existing DADSS research program. It is our hope 
that one day consumers will be able to purchase this technology 
as an option for their car.
    Turning to the grant programs, it is critical that dollars 
are spent on programs that work. SAFETEA-LU traffic safety 
grants represent the majority of funds that States spend on 
drunk driving prevention. You will note in my testimony 
submitted for the record that MADD is offering more specific 
recommendations regarding performance measures and 
accountability.
    With this committee's leadership, we will eliminate drunk 
driving. MADD asks the committee to consider ways to make 
ignition interlocks an important part of the next 
reauthorization bill. We ask for the Congress to turn cars into 
the cure for drunk driving by passing the ROADS SAFE Act. And 
by revamping highway safety grants programs, changes can be 
made to ensure States receive critical funding and spend it on 
activities that will save the most lives and prevent the most 
injuries.
    Thank you for your leadership and having this hearing.
    Mr. Duncan. Thank you very much, Ms. Withers.
    Certainly the worst thing that can happen to anyone is to 
outlive a child, and certainly you have the sympathy of all of 
the Members in that regard.
    I am told by staff that just last night you were elected as 
the new incoming chairman or president of the Mothers Against 
Drunk Driving, so congratulations, and we wish you the best in 
that work, very important work.
    Our next witness is Mr. Robert Letourneau of the New 
Hampshire Motorcycle Education, a New Hampshire motorcycle 
education specialist, who is here to testify on behalf of the 
Motorcycle Riders Foundation.
    Mr. Letourneau.
    Mr. Letourneau. Thank you, Mr. Duncan, and Ms. Richardson 
and members of the transit subcommittee. Thank you for inviting 
me today to testify on behalf of American motorcyclists. My 
name is Robert Letourneau, and I am here representing the 
Motorcycle Riders Foundation, which is a coalition of State 
motorcycle rights organizations and individual members 
representing 275,000 motorcyclists.
    I have served on the New Hampshire House Transportation for 
8 years and chairman of the New Hampshire Senate Transportation 
for three terms. Currently I am serving as a motorcycle rider 
education specialist for the New Hampshire Department of 
Safety, and additionally, I have been a motorcyclist myself for 
34 years.
    I appreciate the opportunity to provide your subcommittee 
with some thoughts the MRF has on highway safety programs 
administrated by the National Highway Traffic Safety 
Administration. The members of the MRF are appreciative that 
SAFETEA-LU legislation section 2010 provided $25 million 
specifically for motorcycle safety rider education and motorist 
awareness of motorcycles. That program has reached 48 States 
and has been extended for 2 years.
    Funding shortfalls for motorcycle safety are present across 
the country. During this time of economic challenge and budget 
shortfalls, many Governors are raiding the dedicated safety 
funds generated by licensing fees from motorcyclists to pay for 
nontransportation programs. When States are running a deficit, 
they turn to the motorcycle programs as a piggy bank. We pray 
that the next reauthorization will not only keep the Federal 
motorcycle safety grant program as a priority, but will also 
keep in place the safeguards that protect those funds from 
being used for any other purpose.
    Many nonprofit State motorcycle rights organizations have 
implemented ``share the road'' programs and impaired riding 
reduction programs with private funding sources. These 2010 
funds could be made available to the nonprofit world to help 
them continue these life-saving endeavors.
    It is important to note that, due in large part of this 
program, motorcycle fatalities dropped for the first time in 11 
years during the 2008-2009 time period. The decrease in 
fatalities from 2008 and 2009 was by 10 percent. That same 
report stated that an explosion of motorcycle sales, from 
356,000 in 1997 to 1.1 million today, is crippling the rider 
education programs across the country. Twenty-nine States have 
capacity problems and often have waiting times for training for 
over 12 weeks. This is another reason why Congress needs to 
invest more money in motorcycle rider education via the 2010 
funds.
    We ask that Congress continue this process set in the 
SAFETEA-LU legislation. Consider this: That under SAFETEA-LU 
law the Federal Government spends $1 per motorcyclist per year, 
and ask yourself if you think that is enough.
    Lastly, as a personal observation from myself, who actually 
sees how these grants positively impact the rider training 
program in my State of New Hampshire, I can say categorically 
that without these grants, it would not have been possible to 
expand our program that will reach many more riders, and the 
outcome will be lives saved because of proper training.
    One area of concern that we are working on right now is--to 
expand is the returning rider, the baby boomers, if you will. 
Our data shows an increase in fatal crashes in this area, and 
we are looking to create a new curriculum to address this 
issue. With the regard of value for the rider education, 
consider this example: During the first 10 years of our 
motorcycle education program, having trained over 23,000 
riders, only 1 of those riders was involved in a fatality, and 
we believe that that rider had a medical event.
    Education is the key to successfully reducing motorcycle 
fatalities. Our experience is proof positive. On behalf of the 
MRF and the American motorcyclists, I thank you for this 
opportunity to present our concerns and views as you consider 
safety issues and development of a new highway program. And I 
will also stay to answer questions after the hearing. Thank 
you.
    Mr. Duncan. Well, thank you very much, Mr. Letourneau.
    That is a fascinating statistic that 23,000 riders were 
trained, and only 1 of those has been involved or has been 
killed. That is amazing. That is great.
    Our next witness is Mr. Mortimer L. Downey III, senior 
adviser of Parsons Brinckerhoff, who is here to testify on 
behalf of the Coalition for America's Gateways and Trade 
Corridors.
    I am going to turn the chair over to the Vice Chairman of 
the subcommittee Mr. Hanna, who will preside from here on. And 
I will be here a few minutes more, but I have some other 
meetings. Mr. Downey, you may begin.
    Mr. Downey. Thank you, Mr. Chairman, Ms. Richardson. It is 
my privilege to be here to talk about the issue of goods 
movement, which is the concern of our coalition. We think this 
is a real opportunity as you are drafting the new legislation 
to not only fulfill constitutional requirements with respect to 
interstate commerce, but to make significant investments that 
will pay off to the economy through the efficient, safe 
movement of goods.
    Our longer statement identifies a number of positions that 
we believe would be useful in legislation, but let me just 
touch on three key points.
    First, we think you should create a new U.S. Department of 
Transportation Office of Multimodal Freight. Such an office 
could really be the focal point within the Department on an 
unbiased basis to develop the data, the policies, and the 
strategies that are really needed to tune up our freight system 
and make it an efficient part of the economy.
    Second, we believe that in addition to freight-friendly 
positions throughout all elements of the bill, that there 
should be a dedicated freight program to make investments that 
are national in scope and nature, that can be very beneficial 
to the operation of the system, that should be selected on an 
objective and merit-based set of criteria, and that can be 
developed in a partnership with the private sector. Those are 
the kinds of projects that have been done in the past. There 
have been some real success stories, the Alameda Corridor in 
California being one of them. But there are many other such 
opportunities, and we should provide the basis by which those 
can be moved forward.
    Finally, I believe there should be in the bill and on the 
freight side a real opportunity for partnership with the 
private sector. There are private operators throughout the 
system; the truckers, the railroads, the barge operators. There 
are private beneficiaries in the movement of freight. They are 
looking for bottom-line improvements to their businesses. We 
have even heard today that some of them are willing to pay to 
see those bottom-line improvements be put into place. They are 
willing to be participants in the financing of projects, but 
they like to be part of the process in identifying the system 
that works and identifying the projects that make sense.
    To achieve that, there needs to be an ongoing dialogue with 
these private-sector companies on how the program works, on how 
the system is developing, and we believe there should be a 
private-sector freight advisory committee for the Department of 
Transportation to provide input on their strategic planning, to 
help in the criteria for project selection, but primarily to be 
a forum on how we make the system work better and how we create 
the data that will be needed to make good decisions within that 
system.
    So we look forward to working with you on the committee as 
legislation is drafted, and certainly we will be here to answer 
any questions this afternoon. But we will be ready to work with 
you throughout the year on this very important effort.
    Mr. Hanna. [presiding.] Thank you very much.
    Our next witness, Mr. Kirk Nagle, CEO and president of the 
American Association of Port Authorities. You are recognized, 
sir.
    Mr. Nagle. Thank you, Mr. Chairman and Ranking Member 
Richardson, for the opportunity to testify before your 
subcommittee this afternoon.
    The American Association of Port Authorities, representing 
our U.S. public port agencies, has submitted a number of policy 
recommendations for reauthorization with our written testimony. 
I would like to touch on just several of those issues of 
particular importance to ports in my oral testimony this 
afternoon.
    In these challenging Federal budget times, it is 
particularly important to focus and prioritize on core Federal 
missions and which have a sizable impact on our economy, 
employment, and our international competitiveness. 
Transportation infrastructure, particularly that connecting the 
U.S. to the world, has consistently been identified as strongly 
in the Federal interests since our Nation's founding. This 
infrastructure is even more important than ever with over 25 
percent of our Nation's gross domestic product accounted for by 
international trade.
    America's ports are doing their share. They are investing 
over $2 billion a year in their infrastructure to accommodate 
increases in trade. However, the constraints and bottlenecks 
are often on the connections to our ports on both the land and 
the water side.
    AAPA believes that it is important in this reauthorization 
to elevate freight transportation, including the connections 
into and out of intermodal facilities like ports, to a higher 
level of focus and priority.
    Among our specific recommendations: to reform and 
consolidate the over 100 existing programs, Mr. Chairman, that 
you mentioned in your opening remarks with one of those 
consolidated programs focusing on freight transportation; as 
well as the multimodal freight office that Mr. Downey 
referenced in his testimony for CAGTC. We think it is very 
important to implement a national freight policy with funding 
targeted at both the Federal and State levels to freight, 
including projects in corridors of regional and national 
significance. These multistate projects now are difficult to 
advance when much of the cost may be in one State and/or in 
multistate or multijurisdictions, but the benefits are widely 
disbursed both regionally and ultimately nationally.
    We also think it is vital that the intermodal connections 
into and out of ports, the so-called last, or, we think, more 
appropriately, first mile, are absolutely critical links. And 
this is often where we see bottlenecks when goods are either 
moving to or away from our America's ports. A Federal Highway 
Administration study found these intermodal connectors to be in 
worse condition and received less funding than their other 
counterparts in the National Highway System.
    Currently it is difficult for these projects to compete in 
the local planning process, which is most often focused more on 
moving people, automobiles, rather than freight. But these are 
absolutely vital to our economy, they are vital to employment, 
and they are vital to our international competitiveness.
    In addition, AAPA urges that in reauthorization there be an 
authorization for a National Infrastructure Investments style 
program, as there is no other general funding source right now 
for port infrastructure.
    And we believe that there should be incentives to encourage 
more short sea shipping and marine highway-type utilization to 
better utilize our Nation's water assets. We have the benefit 
of being a maritime Nation and having water essentially on all 
four of our coasts, including the Great Lakes, and we think we 
should look and incentivize ways of better utilizing that to 
lessen the pressure on our highway system.
    Finally, we endorsed the other notion that you mentioned in 
your opening, Mr. Chairman, about the desire to improve project 
delivery and the permitting process. We support Chairman Mica's 
437-day plan to eliminate redundancies, provide concurrent 
rather than consecutive reviews, streamline processes, and 
delegate NEPA responsibility where appropriate to appropriate 
State agencies.
    Again, I very much appreciate the opportunity to testify 
and would be happy to answer questions at the proper time. 
Thank you.
    Mr. Hanna. Thank you Mr. Nagle.
    Mr. Johnson, manager, carrier relations, Owens Corning, on 
behalf of National Industrial Transportation League. You are 
recognized, sir.
    Mr. Johnson. Thank you, Mr. Chairman.
    Good afternoon. My name is Wayne Johnson. I am the manager 
of global carrier relations at Owens Corning in Toledo, Ohio. 
Today I am here representing the members of the National 
Industrial Transportation League as its chairman of the 
transportation committee itself. I appreciate the opportunity 
to testify.
    Like most of you, I drove to work today. And I am here 
today to talk about industrial perspectives in the 
transportation market.
    Owens Corning depends heavily on transportation 
infrastructure and moves over 570,000 loads a year using all 
modes of transportation. Trucking represents 495,000 loads of 
that total of shipments, and over 145 million highway miles 
traveled every year on an annual basis at a cost of $345 
million that we spend on transportation on the highway side 
alone.
    These are not trivial numbers, and we are only one company 
out of the many members we have. Like so many businesses, we 
depend upon a transportation system that allows us to reach 
suppliers and customers in a timely and efficient manner. 
Congestion on our highways and our ports, intermodal 
connections creates inefficiencies, long transit times, missed 
schedules, production interruptions. All of these are 
uncompensated costs that harm profitability, inhibit our 
ability to grow and add new workers.
    Most of our witnesses are probably in broad agreement with 
the nature of this problem. It is time for solutions, and we 
are enlightened by Chairman Mica's statement there will be no 
more short-term extensions of the surface transportation 
authorization.
    America is underinvesting in our freight transportation 
system. We are failing to recognize how it supports our economy 
interests and creates an environment for sustained economic 
growth. Further delay in enacting a new authorization and 
continued neglect of our existing highway investments will 
compromise American industrial competitiveness. Companies that 
export, like Owens Corning, will fall behind overseas 
competitors. The competition is global and relentless. For 
major importers and retailers, it will mean the costs will soar 
on consumers. And for exporters, importers, and companies that 
do all of their business in the United States, the result is 
the same: We will not be able to add jobs.
    The great recession masked the problems that we have seen 
in the full recovery takes place, but they will come again. The 
chokepoints, backups, delays, and other indicators of 
deteriorating freight transportation systems that were cited 
daily before the recession will abate somewhat, but as we 
resume normal production and consumption cycles, the underlying 
problems of infrastructure neglect and deferred investments 
will again make themselves known.
    For all of our past efforts, we have never seriously 
considered or attempted to put in place the national 
transportation system policy. I recognize the full integrated 
system, comprehensive, multiyear surface transportation 
authorization bill is imperative, and we need it now.
    There are some proposals now in the line with the Highway 
Transportation Fund into a transportation trust fund. Without 
more details, especially on funding, we will reserve judgment. 
However, we are concerned in that the attempt to address many 
shortcomings of our transportation system, there will be 
unwarranted claims on this fund for purposes unrelated to 
transportation. Users of Federal highways should see their 
taxes, tolls, and other fees paid for maintaining and improving 
and expanding capacity on their highways and bridges and system 
connections and not for nontransportation purposes. The 
industry understands that difficulties in advancing this in the 
fiscal year and political environment that we are in today.
    We strongly support the use of--reform of vehicle weight 
limits and trucks to give the States an option to allow six-
axle tractors weighing up to 97,000 pounds on interstate 
highways as one solution. These six-axle vehicles will, of 
course, be required to meet the safety concerns of lighter 
trucks today.
    We respectfully urge the committee to identify and promote 
incentives for moving traffic in off-peak times. It is not easy 
to accomplish, but we think it can be accomplished by this 
committee.
    In my submitted testimony I have also offered other 
recommendations to improve the Nation's freight transportation 
contained in a 10-point platform of principles developed by the 
Freight Stakeholders Coalition, which the league is a member.
    Mr. Chairman, I am here to answer any questions afterwards.
    Mr. Hanna. Thank you very much.
    Ms. Mullings, president and CEO, National Association of 
Truck Stop Operators, you are recognized.
    Ms. Mullings. Thank you, Mr. Chairman and members of the 
subcommittee.
    Today I respectfully urge Congress to reject any proposal 
that would jeopardize the jobs of nearly 2 million Americans 
who are employed by travel plazas, truck stops, restaurants, 
and convenience stores located near interstate exits.
    Some States want to lease out interstate rest areas so they 
can collect fees from a vendor, who will in turn sell food and 
gas to highway motorists. Federal law does not currently allow 
these types of sales at any rest area built after January 1, 
1960. If the law were to be changed, the State would save on 
the maintenance fees, and the business would generate a profit.
    It might seem odd that someone who represents business 
could be opposed to this idea. After all, this sounds like a 
great way to reduce the size of government by privatizing 
government services. In fact, it does just the opposite. The 
government is not in the business of selling food and fuel to 
motorists. The private sector is already meeting the needs of 
highway users at interchanges throughout this country. Allowing 
commercial rest areas would actually expand the role and size 
of government at a cost to businesses and the people who work 
there.
    We already have commercial rest areas in more than a dozen 
States, and we can see for ourselves that they stifle 
competition and business development. On the highways that have 
commercial rest areas, there are 50 percent fewer businesses at 
the interchanges than along highways with no commercial rest 
areas.
    Last year I received a call from NATSO member Roger Cole, 
one of the owners of four travel plaza locations along the east 
coast. He told me that one day he became puzzled by the sales 
data from one of his travel center locations. He double-checked 
the numbers with his accountant, who confirmed they were indeed 
accurate.
    Roger called the general manager of this particular travel 
center, which is located in Maryland. He asked the general 
manager of that location how his sales could have possibly 
jumped this much. I mean, that would have been significant. A 
30 percent increase is how it increased, and that would have 
been significant under any sort of scenario, but this was in 
the fall, or early fall, of 2009 at a time where businesses all 
over the country were suffering from the effects of the 
recession.
    When Roger asked him what he had done, he said he was 
stumped. After about a week of record sales numbers, however, 
he realized something. Just across the Maryland-Delaware line, 
there is a commercial rest area called the Delaware House, and 
it was undergoing major reconstruction. The State rest area 
located on the right-of-way of Interstate 95 closed on the very 
day that Roger's numbers improved so dramatically. The Delaware 
House sells food and fuel as well as convenience items to 
interstate users. Months later the general manager's hunch was 
indeed confirmed. On the day of the grand reopening of the 
Delaware House, sales for the Maryland location dropped 30 
percent, down to the same level where they were prior to the 
closure of the Delaware House.
    This is not a story of businesses fearing competition. Our 
members face competition every hour of every day that they are 
in operation. They face competition from those across the 
street or next door to them. It is because of the rest areas' 
ideal location on the shoulder or the median of the highway 
that makes this a difficult proposition. A vendor can charge 
virtually whatever they want to charge at this rest area 
because they are operating as a monopoly.
    For example, if you stop at the Delaware House, you can buy 
a fast-food hamburger from HMSHost that leases and operates 
franchise restaurants there. If you drive 6 miles down the 
road, however, and get off at an exit, right there is a fast 
food restaurant, the same fast food restaurant, and you can buy 
that same exact hamburger for $1 less.
    Part of that extra dollar goes to the State. It is 
effectively a tax on the public. The remainder of the dollar 
goes into the pocket of the business that was able to bid on 
the rest area successfully and locate there.
    Another one of my members told me that he will pay more 
than $600,000 this year in taxes to Rockbridge County, 
Virginia, where his business is located. If a commercial rest 
area forces his business to close, more than 140 people will 
lose their jobs there. The county will also lose their tax 
revenue, and truckers will lose the hundreds of parking spaces 
that he right now provides for free at his location.
    During his State of the Union address earlier this year, 
President Obama said American jobs created by transportation 
projects, quote, ``didn't just come from laying down 
infrastructure or pavement. They came from businesses that 
opened near a town's new train station or the new off ramp.''
    The competitive interstate business community owes its very 
existence to the visionary leaders who enacted the Interstate 
Highway Act. As you work to reauthorize the Federal 
transportation program, we are looking forward to working with 
you to continue this competitive environment.thank you for 
allowing me to address you today.
    Mr. Hanna. Thank you.
    Now we are going to move to questions and answers. I will 
recognize each Member for 5 minutes, starting with Mr. Young 
from Alaska.
    Mr. Young. I have only one question for Mr. Martz, Jon 
Martz. Is he in the audience? Jon?
    And I do apologize for not being here. I understand you 
were supposed to mention my name in your testimony, and that 
depends on what type question I ask you.
    Mr. Martz. I did, and it was in a good context.
    Mr. Young. OK. Good. Is this simple. Because car pooling 
and van pooling and things, that is the thing that I am 
interested in especially relieving traffic congestion.
    Can you tell me about the market for van pools over the 
past few years, the history, and the correlation between rising 
fuel prices and the van pool usage?
    Mr. Martz. Certainly.
    First off, Chairman Young, let me start by thanking you for 
your interest in this. You have been very involved in your 
State in local van pool programs in both Anchorage and 
Fairbanks, and I want to thank you for that and your leadership 
over the years.
    To answer your question directly, the demand for van 
pooling nationwide has increased significantly. With $4-a-
gallon gasoline, our company alone grew by 37 percent 2 years 
ago. We held, too. One of the things I remember hearing was 
APTA touted that they grew by 4 percent during that time 
period, but then when gas prices fell, their ridership dropped 
quite a bit. We held, and we continued to grow.
    Just since gas prices started increasing in rural and urban 
areas both, we are getting calls from large generators, whether 
they are military bases, nuclear power plants, things like that 
that are kind of not-in-your-backyard type of facilities, that 
they are concerned about how their employees are going to get 
to and from work, and if gas prices continue. And accordingly, 
we are ginning up some business.
    The bad news is gas prices are going up, and it affects the 
economy; the good news for our business is we are able to serve 
more people because we are able to satisfy that demand. But 
that is from Alaska, Idaho, New Mexico and growing metropolitan 
areas like Honolulu, the space coast, and large metros like Los 
Angeles, we are continuing to grow, and this demand could be 
met even better by using Federal transit funds to leverage 
private-sector investment in public transportation.
    Van pooling is not a panacea. We are not a silver bullet, 
but we do serve a certain market niche and very effectively.
    Mr. Young. One of the things I know--you are right about 
Alaska. In 2005, we had 24 van operations in Anchorage alone, 
and now we have about, I believe, 57 vans. So it does work. We 
are finding out--we pay--right now we are paying about $4.50 a 
gallon in Alaska even with all of the oil we have. And for 
those in the audience, we will hit $5 a gallon for gasoline 
probably by the first of June. And this is going to affect the 
economy. But more than that, just how do people make up for 
their ability to go to work? They will be using pools, buses 
and transit, which makes it work a lot better.
    And for those in the audience, if you have got any 
influence, we have to start producing our fuels in this Nation. 
The idea we are going to buy them from Brazil just makes me 
want to throw up. And I think I love this pooling because it 
gets people off the road, and that is very, very important.
    Mr. Martz, thank you, and again I am quite interested in 
this program, and I hope people understand the importance of 
it. And I do thank you for your testifying today.
    And that is all the questions, Mr. Chairman.
    Mr. Hanna. Thank you, Mr. Young.
    I would like to recognize Ms. Richardson from California.
    Ms. Richardson. Thank you, Mr. Chairman.
    Ms. Windsor, Mr. Byrd, and Mr. Downey, if you could make 
your way up to the front. I only have a few minutes, so I am 
going to ask the questions quick, and hopefully I can get a 
quick response.
    Ms. Windsor, you talked about ATA and your willingness to 
tax yourselves, basically the industry, under the commitment 
that obviously that the funds would be utilized would be done 
in an area to help you do your work better. Fuel tax hasn't 
been increased since 1993, and, as you know, we have a bill 
addressing that.
    Could you just restate for the record why you have that 
commitment, because it is very important.
    Ms. Windsor. We believe that, yes, our Nation's highways 
are offices. We do believe that it is time for a fuel tax 
increase provided it is used for our Nation's highways. And 
when we speak of fuel taxes, we speak of all fuel taxes. We are 
paying a higher fuel tax for diesel federally than we do for 
gasoline, but we believe as users of our Nation's highways we 
should also invest in them. So, yes, we believe in the fuel tax 
increase.
    Ms. Richardson. And, Mr. Byrd, we have had--in the last 
Congress we had several hearings about size and weight of 
trucks as well as drug testing, and I found it was interesting 
that you said that you--teamsters are open to nationwide 
testing as long as it is a national program.
    Do you want to allude further on that? And if you have any 
thoughts about the size and weight.
    Mr. Byrd. Talking about the national clearinghouse for 
alcohol and drug testing results?
    Ms. Richardson. Yes.
    Mr. Byrd. Yes. We are open to establishment of that type of 
clearing house. We would just prefer that it would be 
maintained by the Federal Government rather than on a State-by-
State basis.
    It is my understanding that a State like North Carolina 
currently collects this type of data and has their own 
database. We think it would be more efficient and it would be 
more protective for our driver members if it was maintained--if 
data were collected by the Federal Government and maintained by 
the Federal Government.
    Ms. Richardson. And your testimony for the most part was on 
safety. Was there anything other that you wanted to share that 
you didn't have an opportunity to cover?
    Mr. Byrd. Basically I am a safety and health director, but, 
yeah, in terms of size and weight, we have--the Teamsters Union 
has opposed any increases in size and weight of commercial 
motor vehicles because we don't think that the country's 
infrastructure, the road infrastructure, is actually suitable 
to accommodate the added weights.
    Ms. Richardson. And, Mr. Downey, you brought up something 
near and dear to my heart, which was freight planning, and it 
is unfortunate that the actual chairman is not here present.
    Could you just reiterate why you believe that an Office of 
Freight Planning, or multimodal, I think, is the term that you 
used--we have a bill that is really pushing that.
    Mr. Downey. I am familiar with your bill, and there is a 
lot in there that we think is important. I spent a number of 
years at the Department of Transportation, and even today it 
tends to be an organization of silos, some call them 
``cylinders of excellence.'' But they keep people focused on 
the mode of transportation and not the function, and I think in 
terms of goods movement, it is the function that counts. Most 
effective goods movement is, in fact, multimodal. Things come 
off of the ships and containers; they go on to a rail line, 
they go into trucks.
    We really need to be looking at the most efficient way and 
the facilities that will be needed to carry out that efficient 
way of movement. We believe that could best be achieved with a 
single office within DOT. At one time there was such an office, 
it was called the intermodal office, reporting to the 
Secretary. It has been pushed further down in the organization. 
We would like to see something like that back in a prominent 
role.
    Ms. Richardson. And, Mr. Pantuso and Mr. McBride, if you 
would hop up real quick. I have got 55 seconds.
    Mr. Pantuso, there has been much discussion today about 
transit. I found that that was pretty interesting. Other than 
the grants and things that are in place, is there any other one 
thing that you think would be so important that could help 
transit to be able to survive, particularly in the rural 
communities?
    Mr. Pantuso. Well, again, we represent primarily the 
private bus sector, and I think grants are certainly very, very 
important, but not new moneys. Really access to existing funds 
and existing information.
    The motor coach industry is relatively small, but we are 
very, very independent, small-minded businesses that move 760 
million passengers. And just having access to some of the 
available moneys that are currently in place for public 
systems, I think a lot of our members can operate much more 
efficiently and environmentally friendlier.
    Ms. Richardson. And I apologize. As you can see, I have got 
a binder this thick. Did you already tell us what specifically 
those pools of funds were?
    Mr. Pantuso. There are a number of resources. There are 
certainly some existing transit funds. There is access to 
funding through TIFIA, and then if there is a bank, if you 
will, an infrastructure bank, access to those moneys as well.
    Ms. Richardson. And then finally, Mr. McBride--and the 
Chair has been kind enough to give me a few last seconds--it is 
my understanding in working on some legislation with your 
limousine folks that there are different rules for taxis versus 
limousines, and access to airports and all of that. Is there 
anything as we are looking at this overall bill that we could 
do to help your particular industry?
    Mr. McBride. The limousine and the taxi industry feel they 
are being charged unfairly at airports when making pickups. We 
are either a great resource to bring you to the airport or make 
a pickup on the last leg of your trip, and we are being charged 
fees by airport authorities that were paid to be built by 
taxpayer dollars. And it is costing us a lot of grief and 
affecting our bottom line to provide services.
    Ms. Richardson. So you are talking about the queued area 
where you are waiting?
    Mr. McBride. Yes. Yes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Hanna. I would like to recognize Mr. Sires from New 
Jersey.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Martz, would you please take the stand, please.Mr. 
Martz, you mentioned that transportation management 
associations are part of your organization. Can you just give 
me an explanation of what they are, and how can this committee 
be helpful to that association?
    Mr. Martz. Transportation management associations, or TMAs, 
are typically like small little chambers of commerce, business 
service associations that focus on transportation issues for 
the employees in a close geographic location. They work 
together. They leverage their assets, their funds, to make more 
things happen in their general area. New Jersey has a more of a 
statewide network of that than probably any other State other 
than maybe Washington, and it is a very effective one.
    TMAs typically run things like last-mile shuttles. They may 
provide collectively a way to administer the commute-to-work 
benefit for transit and van pool purposes. They may provide 
real-time transit information in the lobbies of their 
businesses, things like that. And all these things focus on 
ways to get their employees to and from work in a more 
expedient and a more efficient manner.
    Your bill, by the way, is an excellent example of how a 
small amount of Federal dollars could leverage more private 
investment to get them both at the planning table where the 
funding decisions are made, where they are really not now, but 
also to look at the market-driven approach that these employers 
are more focused upon: How do we get these people to and from 
work? And not necessarily how the planners think it should be 
done. They are right on the ground. They are right in their 
face.
    So, yeah, we really appreciate your bill. We think it is a 
great thing.
    Mr. Sires. Mr. Martz, if you come from a district like I 
come from, you realize why we have to do something soon, 
because it is just impossible to get around some of the area. 
We need to put something together to get these people back and 
forth to work.
    Mr. Sires. Thank you, Mr. Hanley.
    Mr. Hanley, I know that transit funding is very important 
to Amalgamated Transit Unions, and it is very important to my 
constituents in my district. So would you support a 6-year 
authorization if there was a cut of 20 percent in transit 
funding?
    Mr. Hanley. Not only would we not support it, we think that 
would be a criminal act against the people of our cities. You 
know, most of the people in America live in cities, and urban 
America is losing its mobility every day as a consequence of 
some bad Federal policy that exists. But the notion that we 
would, in the midst of this crisis, actually cut the funding to 
the systems that move our people around our cities is 
unconscionable.
    Mr. Sires. Well, I couldn't agree with you more. You know, 
my district is one of those districts where you have to move 
people to work. Especially in New York City--I represent that 
district that faces New York City, and we have to get people to 
where the jobs are created. And New York City is really a job-
creating engine in the region. So to have a deduction of 20 
percent, 30 percent, it would be devastating for areas like 
that. And I am sure there are other areas like my area in the 
country where it would be devastating. So----
    Mr. Hanley. Well, Congressman, we have seen massive service 
cuts--historic, by the way; more deep service cuts and fare 
increases that at any time at least since World War II--over 
the course of the last year and a half. And the consequences 
are far-reaching. It is not just a matter of people who work in 
transit being impacted, but our cities, as I said, are losing 
mobility.
    I was in Chicago recently speaking to some of the 
representatives of the people who do building service in 
Chicago. People from unions out there, SEIU in particular, who 
told me in great detail about members of their unions who work 
in building service who finish their jobs and have to stay in 
the buildings that they clean for hours waiting for the next 
bus to come, as a consequence of the bus cuts that have 
happened in Chicago.
    But also, you know, what happened in 2008 when fuel hit $4 
a gallon was that ridership was higher than at any time, again, 
since World War II on our transit systems. In places like 
Chicago, the transit systems had no way to respond to that. Our 
systems were strangling as a consequence of paying, themselves, 
the higher cost of fuel and not having funding to pay for it. 
And in Chicago the solution was to begin to rip out the seats 
in subway cars to herd people on like cattle.
    These are taxpayers, they are workers. They don't deserve 
to be treated like that. And Federal policy has been blind over 
the course of the last 2 years to that. And the notion that we 
would then take this a step further and, you know, create a 
further attack on the people who live in our cities who have to 
get to work every day and cut the funding, the Federal funding, 
that makes those systems run, that is just incredible. I can't 
believe that anyone would suggest that.
    Mr. Sires. In my district, we have the Lincoln Tunnel. 
There is a billboard before you enter the Lincoln Tunnel. It 
says, ``Lincoln: Great President, Lousy Tunnel,'' about moving 
people around.
    Thank you, Mr. Chairman.
    Mr. Hanna. I would like to recognize Mr. Nadler from New 
York.
    Mr. Nadler. Thank you.
    I would like to start by reminding Mr. Sires that the 
Lincoln Tunnel is in my district, too.
    Mr. Downey and Mr. Hanley--it connects us.
    Mr. Downey, first of all, if projects of regional national 
significance created by SAFETEA-LU were structured in a more 
targeted, competitive program, as it was originally designed to 
be in the original draft of the bill, could such a program, in 
your opinion, sufficiently fund the large-scale national and 
regional projects that our surface transportation system needs?
    Mr. Downey. It could certainly make a good start at that if 
it could be managed in a cost-effective way, in a merit-based 
way. One of the failings within projects of regional and 
national significance was more than half those projects never 
got started, while others were ready to go and couldn't get the 
funding they needed. So----
    Mr. Nadler. As they said it in the original draft of the 
bill----
    Mr. Downey. I recall the original draft, yes.
    Mr. Nadler. OK, thank you.
    And secondly, some people have talked about having a 
transit bill or, rather, a transportation bill coming in less 
over a 6-period than SAFETEA-LU did, which would be the case if 
we were limited to the existing gasoline tax, no other revenue 
source and no increase in the gasoline tax. And they say we 
should do more with less.
    Do you believe we can keep pace and extend and maintain our 
system by doing more with less? Can you think of any other 
country where an underinvestment strategy has resulted in 
economic growth? And what impact would such underinvestment 
have on goods movement and economic competitiveness?
    Mr. Downey. I think, across the board, if we do not keep 
pace with needs, we will feel the impact of that, whether it is 
moving people in public transport, whether it is the highway 
system, or whether it is goods movement.
    I think in goods movement there is a particular issue, that 
a more efficient goods movement can, in fact, stimulate a more 
effective economy, where actually it would be creating the 
revenues that would pay for the investment.
    So I don't think we should shortchange that element of the 
system. I would be concerned about shortchanging any element of 
the system. Where one doesn't invest, eventually you pay the 
price, in terms of service declining, physical conditions 
declining, safety declining.
    You and I remember what the New York City Subway system 
used to be like. And I now sit on the board of the Washington 
Metro system, and we would not like to see that turn into what 
New York had been. We would need to continue simply to maintain 
the services we have effectively.
    Mr. Nadler. Well, because we underinvested in New York, the 
mean distance between failures in the late 1970s was 6,500 
miles. It is now over 200,000 miles.
    Mr. Hanley, some people have suggested that the trust fund 
should be devoted only to highways, that transit should be 
funded out of other mechanisms, such as general fund 
appropriations.
    What impact do you think solely funding transit out of the 
general fund would have on transit agencies around the country?
    Mr. Hanley. Well, without dedicated funding for transit, we 
would likely have a continuation of the current crisis. It 
might get worse.
    But, also, you know, the notion that transit is somehow--
the impact of transit is not felt on our highways is 
misconceived. The fact of the matter is that when we fund 
adequately mass transit--and, also, by the way, intercity 
transit is part of that notion--we get people out of their 
cars, which helps free up the movement for efficient movement 
of goods and efficient movement of people.
    So the idea that we should somehow segregate transit and 
say that it is not part of the solution to highway problems I 
think is wrong. And I think that the Highway Trust Fund is an 
appropriate vehicle for funding it, although we would welcome 
additional funds from the general fund. And we do think it is 
appropriate, at this time.
    Mr. Nadler. Thank you. So I assume that you would support 
an increased Federal investment in transit as a way to help 
people who are struggling with near-record-high gas prices.
    Mr. Hanley. Well, I would. And I also want to point out 
that for some strange reason in this country we feel that 
foreign oil producers are the only people allowed to raise the 
tax on our gas by raising the cost of oil. And that----
    Mr. Nadler. Thank you.
    Mr. Hanley [continuing]. Somehow it wouldn't be appropriate 
for us, that is mindless.
    Mr. Nadler. Thank you.
    One final question for Mr. Downey. There has been a lot of 
discussion about an infrastructure bank, which I think is 
basically a good idea in many ways. But one of the arguments 
for the infrastructure--or for some proponents of the 
infrastructure bank is that some elite board of experts would 
make all investment decisions based on some criteria rather 
than having Congress make investment decisions. Because, after 
all, Congress is political and might not use the criteria that 
some elite board would use.
    When we talked a moment ago about merit-based criteria in 
the projects of national and regional significance section of a 
bill, or, for that matter, in an infrastructure bank, do you 
think that Congress cannot make such decisions, that only some 
sort of elite board should make such decisions because, 
otherwise, it cannot be merit-based?
    Mr. Downey. It has been my experience that one can work 
with the Congress in arriving at those merit-based decisions.
    One of the models has been the New Starts program in 
transit, where extensive study, sometimes too extensive, but 
extensive, solid study arrives at a point where a 
recommendation can be made. Congress' view is sought at that 
point, in terms of moving the project forward. Once there is 
agreement, then the project sponsors seek the funding through 
an annual appropriations process. But the congressional 
involvement, in that program at least, in my view, has been 
very positive. And I would look for something similar to that 
in any freight program.
    Mr. Nadler. Thank you.
    Mr. Hanna. I would like to recognize Ms.--thank you for 
your patience--Ms. Napolitano from California.
    Mrs. Napolitano. Thank you so very much, sir.
    I appreciate your time. I would also like to have Mr. Nagle 
and Mr. Millar join you up at the desk.
    But for Mr. Downey, should the bill create a freight 
program to address thenegative impact that freight causes in 
urban communities? Should there be a user fee attached to a 
freight program? And do you have any recommendations?
    This comes out of the fact that I have the whole Alameda 
Corridor going through my district, and it impacts it, yet 
railroads only put in 3 percent, maybe 2 percent, in kind for 
the construction of a $50 million, $60 million, $80 million 
project.
    Mr. Downey. I think there is room--there should be room to 
consider all of the impacts of goods movement and really 
incorporate those externalities into the pricing in one way or 
another.
    The program, the concept that our coalition has put forward 
has, in fact, been vetted with Environmental Defense Fund. And 
we are very much in sync, in terms of how a good program could 
work, not only for the benefit of freight efficiency but for 
the communities that are involved.
    Mrs. Napolitano. Well, it is a corridor of national 
significance that brings about 45, 55 percent of the Nation's 
goods to this area--to the rest of the Nation, and yet we are 
struggling to have some of those paid for.
    One of the things to Captain Dowling, California Highway 
Patrol--I have always been a strong supporter of the Highway 
Patrol ever since I was in the statehouse. But would you please 
talk to us about the importance of the grade crossing safety 
programs and the construction of grade separation projects? Do 
you think Congress should continue to fund railroad/highway 
grade crossing safety programs? Most of the time, or at least 
in this subcommittee when we have had the railroads testify, 
they have indicated usually they are volunteer safety programs 
from their end.
    And should we allow an increase in truck size on the 
freeways? And what impact would that have on the safety that 
you see?
    Mr. Dowling. Well, in regards to the railroad crossing, as 
far as CVSA and us taking a particular position on that, we are 
obviously concerned with the overall highway safety in that. I 
don't know that we have really evaluated specifically the 
funding and volunteer versus specific funding in that.
    In regards to the truck size and weight, I think one of the 
biggest concerns that we have is there really hasn't been 
substantial studies that have looked at all the different 
impacts that that could potentially have. For example, even 
though there have been some advances in technology that may say 
that stopping distances may only minimally be increased, one of 
the concerns that we have is, what potential impact does that 
increased size have in crush factors and collisions? And, 
therefore, it may impact the amount of fatalities versus 
injuries that would occur in a collision.
    Those are the type of safety analysis that I think needs to 
be done to make sure that whatever decisions are made, as we 
try to become more productive and to balance that economics 
versus safety, that we are truly having the safety conversation 
involved in that discussion.
    Mr. Nadler. Is anything being done at the State level?
    Mr. Dowling. Yeah, actually, there are some analyses that 
are going on, including that we are using some computer 
modeling to try to determine some of this. We are hoping to be 
able to bring that. And it is also something that our Size and 
Weight Committee of CVSA is actively engaged in and that we 
hope to have some more information----
    Mrs. Napolitano. Well, I would hope that you would send 
some of those findings to this subcommittee so that we have an 
idea what some of that impact will be.
    To Mr. Millar and Mr. Hanley, some of the witnesses are 
testifying today and probably tomorrow calling for the mass 
transit account to be removed from the Highway Trust, something 
that Mr. Nadler just addressed. To me, in my area, we are 13 
million people in L.A. County, and it takes mass transit. You 
put a bus, there is a freeway accident, it gets hung up just 
like anybody else.
    What other mass transit--what is the impact it would have 
on transit if we were to look for other alternatives? And, of 
course, folding into that the public-private partnerships that 
everybody is talking about, where we don't know how to find 
them yet.
    Mr. Millar. We would strongly oppose the separation of mass 
transit from highways. We think President Reagan got it right 
in 1983 when he agreed with the Congress to put them together. 
We think it gives the Congress--and this committee is certainly 
the evidence of it--it certainly gives the Congress to consider 
the tradeoffs between highways and transit in a comprehensive 
way. So we can see no good reason for taking public transit out 
of there.
    The number-two beneficiary of the transit investment in 
America is the urban motorist, who, according to Texas A&M 
University, receives over $19 billion a year benefit in reduced 
urban congestion from the fact that transit operates in 
America.
    Mr. Nadler. Thank you.
    Mr. Hanley?
    Mr. Hanley. Well, along the lines of the question about the 
use of buses on highways that are already clogged, you know, 
there is an innovation that has been used all around the 
world--we are lagging behind many other countries, including in 
Latin America--and that is using bus rapid transit, which 
dedicates not only highway lanes but also gives a bus the 
ability to change the signals along the way to move the buses 
more quickly. There are many things that are also involved in 
that, but that is something that we have fallen far behind the 
rest of the world in.
    We had a very slight experiment with this in my hometown, 
in Staten Island, New York. The consequence of adding bus lanes 
and getting bigger buses was that our ridership went up in a 
year and a half about 120 percent on these routes. And, also, 
the people not only got to work faster, in a more reliable 
fashion, but the cost per rider goes down when you give buses 
the right of way to move.
    And, you know, certainly, you wouldn't allow a cow to sit 
on the railroad tracks. And that is essentially what we are 
doing with our bus system by not being more forward-thinking 
and building more BRTs.
    Mrs. Napolitano. Thank you.
    With the indulgence of the Chair, Mr. Nagle, the port 
congestion is a great issue for us. And it hurts our economy. 
Like I said, a lot of it comes through my district. How can we 
mitigate the congestion to create more rapid and efficient 
goods and people movement throughout the country?
    Mr. Nagle. I think one of the things that should be a focus 
is the intermodal connector side of the national highway 
system. A lot of the ports, whether it is southern California 
or throughout the country, that bottleneck and where you see 
the congestion are on those connections between the port 
facility and the highway.
    And so we think there should be a specific part of the 
freight program that is addressing the intermodal connectors 
that can help essentially that last-mile or first-mile 
connection into and out of ports. We think that is an 
absolutely critical link and is often where those bottlenecks 
are.
    I think it also can get toward some of the things you 
raised with Captain Dowling, in terms of the grade separations, 
et cetera. That can also help, and that can also then help in 
terms of both the rail in and out of ports and also the truck 
traffic in and out of ports.
    Mrs. Napolitano. But you have also heard that sometimes 
they build it and then they ask the partners to come in, which 
may be deciding a problem. I know it happened in one of the 
ports, I don't remember if it was in Long Beach or L.A. And so, 
is that an issue also that should be addressed? In other words, 
working with the partners prior to the construction of any of 
those new systems.
    Mr. Nagle. What our policy position states essentially is 
that there should, in that type of a scenario, there should be 
a public-private, essentially, partnership where the private 
benefits are identified and, in that case, the private rail 
company would pay for those aspects of the benefits, and then 
the public benefits would be----
    Mr. Nadler. But you don't want Congress mandating it.
    Thank you, Mr. Chair.
    Mr. Hanna. You are welcome.
    I would like to thank everyone for their testimony today. 
Your comments and insights have been very helpful. The 
witnesses are dismissed.
    I would like to thank the audience and everyone, all the 
stakeholders and participants and citizens for being here.
    If there are no Members that have anything to add, this 
subcommittee stands in recess until tomorrow, Wednesday, March 
30th, at 10:30 a.m. Thank you.
    [Whereupon, at 4:44 p.m., the subcommittee was adjourned, 
to reconvene at 10:30 a.m., Wednesday, March 30, 2011.]
    [Prepared statements and submissions supplied for the 
record follow:]

</pre></body></html>
